<html>
<title> - CREATING A CLIMATE RESILIENT AMERICA: OVERCOMING THE HEALTH RISKS OF THE CLIMATE CRISIS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                 CREATING A CLIMATE RESILIENT AMERICA:
                      OVERCOMING THE HEALTH RISKS
                         OF THE CLIMATE CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE
                             CLIMATE CRISIS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                            FEBRUARY 5, 2020

                               __________

                           Serial No. 116-17
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                            www.govinfo.gov
   Printed for the use of the Select Committee on the Climate Crisis
   
   
   
   
                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 41-273                WASHINGTON : 2020    
 
 
   
   
                 SELECT COMMITTEE ON THE CLIMATE CRISIS
                     One Hundred Sixteenth Congress

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana,
SUZANNE BONAMICI, Oregon               Ranking Member
JULIA BROWNLEY, California           MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado

                              ----------                              

                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climatecrisis.house.gov
                        
                            C O N T E N T S

                              ----------                              

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
  Opening Statement..............................................     1
  Prepared Statement.............................................     3

                               WITNESSES

Hon. Gina McCarthy, President and Chief Executive Officer, 
  Natural Resources Defense Council
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Aparna Bole, MD, FAAP, Chair, AAP Council on Environmental 
  Health, on behalf of American Academy of Pediatrics
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Arturo S. Rodriguez, President Emeritus, United Farm Workers, UFW 
  Foundation, on behalf of UFW Foundation and United Farm Workers 
  of America
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

                       SUBMISSIONS FOR THE RECORD

Letter from the American Psychological Association, submitted for 
  the record by Ms. Castor.......................................     4
Letter from the National Association of County & City Health 
  Officials, submitted for the record by Ms. Castor..............     5
Prepared Statement of Derrick Hollie, President, Reaching 
  America, submitted for the record by Ms. Castor................     6
Report, Preliminary US Emissions Estimates for 2019, submitted 
  for the record by Mr. Graves...................................    51
Data, U.S. Energy Information Administration State Electricity 
  Profiles, submitted for the record by Mr. Graves...............    51

                                APPENDIX

Questions for the Record from Hon. Kathy Castor to Hon. Gina 
  McCarthy.......................................................    51
Questions for the Record from Hon. Kathy Castor to Aparna Bole, 
  MD, FAAP.......................................................    53
Questions for the Record from Hon. Kathy Castor to Arturo S. 
  Rodriguez......................................................    55


                 CREATING A CLIMATE RESILIENT AMERICA:

                      OVERCOMING THE HEALTH RISKS

                         OF THE CLIMATE CRISIS

                              ----------                              


                      WEDNESDAY, FEBRUARY 5, 2020

                          House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:03 a.m., in Room 
1300, Longworth House Office Building, Hon. Kathy Castor 
(chairwoman of the committee) presiding.
    Present: Representatives Castor, Bonamici, Brownley, 
Huffman, Levin, Graves, Palmer, Carter, and Miller.
    Ms. Castor. Committee will come to order. Welcome to the 
February 5th, 2020, meeting of the Select Committee on the 
Climate Crisis, ``Creating a Climate Resilient America: 
Overcoming the Health Risks of the Climate Crisis.''
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    Good morning, and thanks to everyone for being here early 
this morning. I hope the state of your coffee is strong this 
morning. Today we are continuing to investigate the challenges 
posed by the climate crisis and the benefits we gain from 
solving it. Health issues are top of mind for many Americans, 
and the serious health consequences of climate change should be 
too. This hearing will examine how climate solutions help save 
lives and provide economic benefits. I will now recognize 
myself for 5 minutes for an opening statement.
    The climate crisis is making air pollution worse, and as 
temperatures rise, the public health suffers. Today we will 
explore the harms of the growing health impacts related to the 
climate crisis and what we can do about it. One of our most 
important responsibilities as elected representatives is to 
keep our constituents safe. Congress has worked to keep 
Americans healthy whether it is by protecting our drinking 
water, investing in life-saving medical research, or expanding 
access to healthcare. And while America has been fueled over 
the past two centuries by burning coal, oil, and gas, over 
time, those fuel sources have harmed the public health, and now 
it is getting worse. The number and gravity of cases of heart 
and lung disease, asthma, extended allergy seasons, and the 
impacts of extreme heat are on the rise.
    And climate-aggravated illnesses are having a 
disproportionate impact on children, seniors, and our neighbors 
who work outside. The science could not be clearer: The climate 
crisis is making Americans sicker, exposing them to stronger 
heat waves, dangerous wildfires, floods, droughts, and climate-
fueled disasters, the changing climate is also altering the 
patterns of infectious diseases making warm seasons longer and 
threatening food security across the world. Unless we take bold 
climate action, global surface temperatures will continue to 
rise, making these risks even more dangerous. But science tells 
us that we can do something about it. We can reduce carbon 
pollution, increase energy efficiency, and move toward a clean 
energy economy. We can strengthen clean air and clean water 
protections and we can solve this crisis by taking bold, urgent 
action to protect the health of all Americans. Curbing 
pollution can literally save lives and save America hundreds of 
billions of dollars.
    The World Health Organization estimates that the climate 
crisis could cause nearly 250,000 additional deaths globally 
each year due to health risks associated with malnutrition, 
heat stress, and other health effects. And warmer temperatures 
can make it more challenging to battle infectious diseases. 
Dangerous illnesses like Lyme disease and malaria are borne 
through fleas, ticks, and mosquitoes, which can thrive when we 
have longer and hotter summers, shorter winters, and earlier 
spring seasons.
    The climate crisis also puts the health of workers at risk. 
As we will hear, it can be particularly dangerous for farm 
workers: the folks who help grow the food that ends up on our 
dinner tables. Rising temperatures will make sustained work 
increasingly difficult for millions of workers with 
temperatures regularly breaching physiological limits.
    Solving a crisis is also about protecting our kids and 
grandkids, as well as our aging parents and grandparents. 
Children have a higher risk of heatstroke and illness than 
adults, while older adults are vulnerable to extreme weather 
events that can cause power outages and require evacuations.
    In recent years, wildfires also have left communities 
choking on smoke even when the fires are miles away. We have 
seen the deadly disruption of healthcare delivery during and 
after infamous storms like Katrina, Sandy, Harvey, Maria, and 
Michael. Those storms left healthcare facilities damaged, 
medical professionals displaced, and patients struggling to get 
needed care. While all Americans are at risk of suffering 
climate-fueled health problems, some populations are more 
vulnerable than others. Working class families, for example, 
face higher risk when floodwaters overtake their neighborhoods, 
bringing the mental strain of dealing with a disaster and 
carrying dangerous pathogens that put them at risk of physical 
illness. Decades of discrimination also have exposed working 
class communities and communities of color to extreme heat, 
putting them on the front lines of the climate crisis.
    As we discuss climate solutions today, it is clear we must 
emphasize environmental justice for these vulnerable Americans. 
Congress shouldn't wait until it is too late for us to act on 
climate. We can turn things around, reduce climate impacts, and 
protect our communities, but the time to follow the science and 
act is now. I look forward to hearing from our distinguished 
panel of witnesses.
    [The statement of Ms. Castor follows:]

                Opening Statement of Chair Kathy Castor

   Hearing on ``Creating a Climate Resilient America: Overcoming the 
                  Health Risks of the Climate Crisis''

                 Select Committee on the Climate Crisis

                            February 5, 2020

                        As Prepared for Delivery

    The climate crisis is making air pollution worse and, as 
temperatures rise, the public health suffers. Today we will explore the 
harms of the growing health impacts related to the climate crisis and 
what we can do about it.
    One of our most important responsibilities as elected 
representatives is to keep our constituents safe. Congress has worked 
to keep Americans healthy, whether it's by protecting our drinking 
water, investing in life-saving medical research, or expanding access 
to health care.
    While America has been fueled over the past two centuries by 
burning coal, oil and gas, over time those fuel sources have harmed 
public health. And now it's getting worse. The number and gravity of 
cases of heart and lung disease, asthma, extended allergy seasons, and 
the impacts of extreme heat are on the rise. And climate-aggravated 
illnesses are having a disproportionate impact on children, seniors and 
on our neighbors who work outside.
    The science could not be clearer. The climate crisis is making 
Americans sicker, exposing them to stronger heat waves, dangerous 
wildfires, floods, droughts, and climate-fueled disasters. The changing 
climate is also altering the patterns of infectious diseases, making 
warm seasons longer, and threatening food security across the world. 
Unless we take bold climate action, global surface temperatures will 
continue to rise, making these risks even more dangerous.
    But science also tells us that we can do something about it. We can 
reduce carbon pollution, increase energy efficiency, and move toward a 
clean energy economy. We can strengthen clean air and clean water 
protections. And we can solve this crisis by taking bold, urgent action 
to protect the health of all Americans. Curbing pollution can literally 
save lives and save America hundreds of billions of dollars.
    The World Health Organization estimates that the climate crisis 
could cause nearly 250,000 additional deaths globally every year, due 
to health risks associated with malnutrition, heat stress and other 
health effects. And warmer temperatures can make it more challenging to 
battle infectious diseases. Dangerous illnesses like Lyme disease and 
malaria are borne through fleas, ticks and mosquitoes, which can thrive 
when we have longer and hotter summers, shorter winters, and earlier 
spring seasons.
    The climate crisis also puts the health of workers at risk. As we 
will hear, it can be particularly dangerous for farm workers, the folks 
who help grow the food that ends up on our dinner tables. Rising 
temperatures will make sustained work increasingly difficult for 
millions of workers, with temperatures regularly breaching 
physiological limits.
    Solving this crisis is also about protecting our kids and 
grandchildren, as well as our aging parents and grandparents. Children 
have a higher risk of heat stroke and illness than adults, while older 
adults are vulnerable to extreme weather events that can cause power 
outages and require evacuations. In recent years, wildfires have left 
communities choking on smoke even when fires are miles away. We've seen 
the deadly disruption of health care delivery during and after infamous 
storms like Katrina, Sandy, Harvey, Maria and Michael. Those storms 
left healthcare facilities damaged, medical professionals displaced and 
patients struggling to get needed care.
    While all Americans are at risk of suffering from climate-fueled 
health problems, some populations are more vulnerable than others. 
Working class families, for example, face higher risks when floodwaters 
overtake their neighborhoods, bringing the mental strain of dealing 
with a disaster and carrying dangerous pathogens that put them at risk 
of physical illness. Decades of discrimination also have exposed 
working class communities and communities of color to extreme heat, 
putting them on the front lines of the climate crisis. As we discuss 
climate solutions today, it's clear we must emphasize environmental 
justice for these vulnerable Americans.
    Congress shouldn't wait until it's too late for us to act on 
climate. We can turn things around, reduce climate impacts, and protect 
our communities. But the time to follow the science and act is now.
    I look forward to hearing from our distinguished panel of 
witnesses.
    Mr. Graves, our ranking member, is going to be a little bit 
late today. When he arrives, he will have the opportunity to 
give his opening statement. So, at this time, without 
objection, the other members who would like to submit opening 
statements may have 5 business days to do so.
    And before I welcome our witnesses, I have two unanimous 
consent requests. We are going to go ahead and get them out of 
the way today. The minority has had an opportunity to review 
these letters. The first is from the American Psychological 
Association about the mental health impacts of climate change. 
The second is from the National Association of County and City 
Health Officials about the efforts local health departments are 
taking to address the health risks of climate change and the 
support that they need.
    [The information follows:]

                       Submission for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                            February 5, 2020

                 American Psychological Association
                                            Services, Inc.,
                                                  February 4, 2020.
Hon. Kathy Castor,
Chair, House Select Committee on the Climate Crisis,
Washington, DC.
Hon. Garret Graves,
Ranking Member, House Select Committee on the Climate Crisis,
Washington, DC.
    Dear Chairwoman Castor and Ranking Member Graves: When you think 
about climate change, mental health might not be the first thing that 
comes to mind. Americans are beginning to grow familiar with climate 
change and its health impacts: worsening asthma and allergies; heat-
related stress; foodborne, waterborne, and vector-borne diseases; 
illness and injury related to storms; and floods and droughts. However, 
the connections with mental health are not often part of the 
discussion.
    It is time to expand information and action on climate and health, 
including mental health. The health, economic, political, and 
environmental implications of climate change affect all of us. The 
tolls on our mental health are far reaching. They induce stress, 
depression, and anxiety; strain social and community relationships; and 
have been linked to increases in aggression, violence, and crime. 
Children and communities with few resources to deal with the impacts of 
climate change are those most impacted.
    To compound the issue, the psychological responses to climate 
change, such as conflict avoidance, fatalism, fear, helplessness, and 
resignation are growing. These responses are keeping us, and our 
nation, from properly addressing the core causes of and solutions for 
our changing climate, and from building and supporting psychological 
resiliency.
    To help increase awareness of these challenges and to address them, 
the American Psychological Association (APA) and ecoAmerica sponsored 
this report, Mental Health and Our Changing Climate: Impacts, 
Implications, and Guidance.\1\ The report is intended to inform and 
empower health and medical professionals, community and elected 
leaders, and the public.
    APA supports robust, science-based efforts to address a wide range 
of social issues, including climate change. APA is the largest 
scientific and professional organization representing psychology in the 
United States, and works to promote the advancement, communication, and 
application of psychological science and knowledge to benefit society 
and improve lives. Our membership includes more than 121,000 
researchers, educators, clinicians, consultants, and students.
    We thank you for holding today's hearing and for considering the 
mental health aspects of climate change raised in our report. If you 
have any questions or need additional information, please contact Geoff 
Mumford, PhD, directly at 202.336.6067 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b0d7ddc5ddd6dfc2d4f0d1c0d19edfc2d79e">[email&#160;protected]</a>
                                     Russell Shilling, PhD,
                                          Chief Scientific Officer.
---------------------------------------------------------------------------
    \1\ https://www.apa.org/news/press/releases/2017/03/mental-health-
climate.pdf.
---------------------------------------------------------------------------

                       Submission for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                            February 5, 2020

                   National Association of County &
                                     City Health Officials,
                                                  February 4, 2020.
Hon. Kathy Castor,
Select Committee on the Climate Crisis,
Washington, DC.
Hon. Garret Graves,
Select Committee on the Climate Crisis,
Washington, DC.
    Dear Chair Castor and Ranking Member Graves: On behalf of the 
National Association of County and City Health Officials (NACCHO), 
representing the nearly 3,000 local health departments across the 
country, I write to thank you for highlighting the impact of climate 
change on our nation's health through the hearing, ``Creating a Climate 
Resilient America: Overcoming the Health Risks of the Climate Crisis'' 
Climate change has serious and far-reaching health implications for 
present and future generations. We appreciate your focus on this 
incredibly important issue.
    Across the country, local health departments are tasked with 
addressing the many health risks that stem from climate change. As the 
climate continues to change communities will be susceptible to a number 
of health threats, including increased exposure to and geographic reach 
of vector-borne and infectious diseases like Zika and Lyme disease, 
exacerbation of respiratory conditions and allergies due to worsening 
air quality and pollution levels, food shortages, and lack of access to 
safe drinking water. Similarly, the increasing frequency and intensity 
or adverse weather event, like floods and wildfires, or natural 
disasters like hurricanes pose unique public health threats to the 
communities affected.
    With the necessary resources, local health departments are uniquely 
positioned to prepare for and respond to these health impacts and 
protect the public's health. For example, NACCHO, with the support of 
the Centers for Disease Control and Prevention, offered a funding 
opportunity to supplement local health departments' ongoing climate 
change and health adaptation initiatives. In January 2019, NACCHO 
awarded the Boston Public Health Commission and the Marquette County 
Health Department (MI) each with $15,000 grants to use in climate and 
health projects through July 31, 2019. In Boston, the grant supports 
the translation and printing of extreme temperature resource guides to 
reach all intended populations, particularly non-English speakers who 
may be the most vulnerable, while Marquette County is developing a 
public health emergency response plan specifically addressing climate 
change-related localized flooding, which is predicted to increase in 
this rural locality.
    However, many more communities need this type of support to 
effectively plan and act to address the public health effects of 
climate change. Unfortunately, while NACCHO surveys have consistently 
found that local health officials are concerned about climate change, 
few feel that they have the tools to address it in a comprehensive way. 
Nearly eight out of ten local health department directors believe their 
local health department lacks the expertise to assess the potential 
impacts of climate change and effectively create adaptation plans to 
respond to climate change. While more than half of health department 
directors acknowledge the health impacts of climate change, less than 
20% (one-fifth) have the resources and expertise needed to assess the 
potential impacts, create effective plans, and protect their community 
from these health impacts. A strong public health workforce is critical 
to be able to respond to the changing climate and best protect 
communities across the country from its effects.
    NACCHO strongly urges all levels of government to collaborate with 
community stakeholders in preparation for and response to a changing 
global and local climate. Local health departments and the public 
health community can and should provide strong leadership in climate 
change mitigation and adaptation efforts.
    Thank you, again, for holding this important hearing. Please 
contact Eli Briggs, NACCHO Senior Director of Government Affairs at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d383f2f343a3a2e1d333c3e3e353273322f3a">[email&#160;protected]</a> or 202-507-4194 if you require additional 
information or have any questions.
            Sincerely,
                                 Lori Tremmel Freeman, MBA,
                                                               CEO.

    Ms. Castor. In addition, Derrick Hollie was one of our 
scheduled witnesses. He was not able to join us in person today 
due to an illness, so we are sorry to miss him, but I ask 
unanimous consent to accept these letters from these 
organizations and that Mr. Hollie's testimony be added to the 
record.
    Hearing no objection, so ordered.
    [The information follows:]

                       Submission for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                            February 5, 2020

                                          Reaching America,
                                                  February 5, 2020.
The Select Committee on the Climate Crisis,
Longworth House Office Building,
Washington DC.
    Greetings Chair Castor, Ranking Member Graves and Members of the 
Committee: Thank you for this opportunity to speak.
    I'm Derrick Hollie, president of Reaching America, an education and 
policy organization I developed to address complex social issues 
impacting African American communities. One of the issues Reaching 
America does the most work on is reducing energy poverty across the 
board.
    Energy Poverty exists when low income families or individuals spend 
up to thirty percent of their total income on their electric bill. And 
when this happens, it puts people in a difficult situation and having 
to make tough choices like, do I eat today or pay the electric bill? Do 
I get this prescription filled or do I put gas in my car? We all know 
someone who faces these tough choices every month.
    For members of minority, rural, low income and senior citizen 
communities, Energy Poverty is a reality. And unfortunately, members of 
our community don't have the luxury to pay more for green technologies 
and adequate health care. We need access to affordable energy to help 
heat our homes, power our stoves and get back and forth to work each 
day.
    Through Reaching America I've had the opportunity to speak with 
thousands of African Americans in several states who question the 
rising cost of energy along with fees and subsidies they don't benefit 
from and how they struggle to keep up.
    My passion for energy is deeply rooted, after graduating from 
college I worked as brakeman for Norfolk Southern Railways at Lambert's 
Point in Norfolk, Virginia. Our job and responsibilities was loading 
coal ships that transported coal all around the world and I constantly 
ask the question, ``If our coal and natural resources are good enough 
for other countries--why is not good enough for us here at home. My 
grandfather was also a black coal miner in Southwest VA. It's safe to 
say if it weren't for the energy industry, I wouldn't be here to speak 
with all of you today.
    When the government creates policy, its first priority should be 
the welfare of the people, especially those impacted the hardest, 
rather than big businesses and special interests looking for a handout. 
And if people can't afford to stay warm, they certainly can't afford 
healthcare especially those on a fixed income.
    And here's a real-life example. Last week my eighty-four-year-old 
mother-in-law on a fixed income was at our house. She was complaining 
about a $150 deductible on a prescription that needed to be filled. In 
addition to her electric bill that includes renewable mandates--a 
subsidy that she is required to pay and will never benefit from it 
right here in the District of Columbia. My mother-in-law has three 
daughters that help her. However, millions of Americans don't have that 
benefit and are forced to try and balance paying for healthcare and 
energy. And most have to choose between one or the other.
    A new study \1\ out of Northwestern University confirms that 
increases in electricity and natural gas prices lead to more winter 
deaths. The effects were even larger among the poor, as families are 
forced to choose between putting food on the table, health care and 
keeping their homes warm. With the amount of affordable and reliable 
energy in America, these are choices we shouldn't have to make.
    It would be helpful to have a ``Impact Assessments'' before any 
regulation is passed. This would be a major step toward increasing 
economic opportunities. And having input from Governors and community 
leaders the same way ``Qualified Opportunity Zones'' were created. It 
will also establish a level of trust in communities that never existed 
before.
    After all, the government requires environmental impact statements 
to estimate the effects of projects like roads and buildings on nature. 
Shouldn't the government act similarly when it comes to how regulations 
impact the population?
    A minority impact assessment would create a list of all the 
positive and negative impacts a proposed regulation would have on 
factors including employment, wages, consumer prices and homeownership. 
This regulatory impact would then be analyzed for its effect on 
minorities and other communities mentioned in contrast to the general 
population.
    The bottom line, any policy that contributes to energy poverty is a 
bad one for low income families, minorities, rural and senior citizens 
communities. Fortunately, our nation has an abundant supply of natural 
gas that is a solution to our nation's energy needs. Recent polar 
vortex temperatures dropped so low in some areas that windmills 
couldn't turn. We need a plan B and that's Natural Gas.
    Natural gas is clean. The U.S. Energy Information Administration 
reports that almost two-thirds of the CO2 emission reductions from 
2006-2014 came from the fuel shifting toward natural gas. And right 
now, our air quality in America is the best it's been in decades. The 
New York Times even confirmed that in an article published June 19th, 
2019.
    Natural gas is also reliable. Natural gas generation efficiently 
meets the needs of our nation's energy grid. And natural gas is 
affordable. For many Americans, this allows them to not have to choose 
whether to keep the lights on or get a prescription filled.
    In closing, I'm all for protecting the environment and clean energy 
however until we have figure out a way to harness the sun, wind and 
water to sustain ourselves, we need to use what we have especially if 
it can lower energy cost, create jobs and boost the economy and allow 
for adequate health care.
---------------------------------------------------------------------------
    \1\ https://twitter.com/seemaecon/status/1110162658618040320.

    Ms. Castor. At this time, we want to welcome our witnesses. 
We have an outstanding panel today. Their testimony, I know you 
all have read it, is chockful of substantive recommendations 
for the Climate Committee's report that is coming out in March. 
You will recognize some of them, especially our first witness, 
Ms. Gina McCarthy. She is the new president and CEO of the 
Natural Resources Defense Council, NRDC, an organization that 
has been working to protect people and the environment for 50 
years. Ms. McCarthy served as the 13th Administrator of the 
U.S. Environmental Protection Agency in President Obama's 
Cabinet and has worked for Republican Governors in senior 
leadership positions as well. She was a professor of the 
practice of public health at the Department of Environmental 
Health at the Harvard T.H. Chan School of Public Health and 
holds a master's degree in environmental health engineering, 
planning, and policy from Tufts University.
    Welcome.
    Dr. Aparna Bole is here today on behalf of the American 
Academy of Pediatrics where she serves as the chair of the 
Council on Environmental Health. Dr. Bole is a practicing 
pediatrician at UH Rainbow Babies and Children's Hospital where 
she serves as medical director of community integration and is 
an associate professor of pediatrics at Case Western Reserve 
University School of Medicine.
    Welcome, Dr. Bole.
    And Mr. Arturo Rodriguez is here to testify on behalf of 
the United Farm Workers Foundation and the United Farm Workers 
of America. Mr. Rodriguez was president of UFW for over 25 
years until 2018 and is now president emeritus.
    Without objection, the witnesses written statements will be 
made part of the record.
    With that, Ms. McCarthy, you are now recognized to give a 
5-minute presentation of your testimony.

STATEMENTS OF THE HONORABLE GINA MCCARTHY, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, NATURAL RESOURCES DEFENSE COUNCIL; APARNA 
   BOLE, M.D., FAAP, CHAIR, COUNCIL ON ENVIRONMENTAL HEALTH, 
   AMERICAN ACADEMY OF PEDIATRICS; AND ARTURO S. RODRIGUEZ, 
    PRESIDENT EMERITUS, UNITED FARM WORKERS, UFW FOUNDATION.

            STATEMENT OF THE HONORABLE GINA MCCARTHY

    Ms. McCarthy. Thank you very much. Hi. Good morning, 
everybody. First of all, thank you Chairwoman Castor and 
Ranking Member Graves, when he gets here, and members of the 
select committee for holding this hearing.
    I have three children, and I am lucky enough to also have 
two grandchildren that I absolutely adore is probably not too 
strong a word. And they will be both 32 and 31 years old in 
2050, and that is the year that science tells us that we must 
have a zero carbon future if we want to avoid the most 
destructive climate impacts, and that is really why I am here 
today.
    All of a sudden, 2050 isn't so far away, and it is my 
responsibility to defend a healthier and brighter future for 
all of our kids. It is our climate fight, and it is really 
always going to be that personal to me and I think to everyone.
    At the Environmental Protection Agency, our success was 
measured in lives saved, healthier kids, and fewer asthma 
attacks. Climate change was in our purview because the mission 
was to protect people from pollution, just like the carbon 
pollution that is fueling climate change. So this is not a 
partisan issue. This is an issue of science.
    I took the helm of one of the premier environmental 
organizations in the world, NRDC, because I could not sit on 
the sidelines. We need to restore science as the foundation of 
sound public policy, and we need to change how we fuel our 
global economy. And, frankly, we don't have time to put our 
heads in the sand anymore or to muzzle our scientists about 
telling us what is really happening in the world. We must 
recognize that carbon pollution is not an equal opportunity 
killer. Climate warming pollution targets our children, the 
elderly, the poor, and the powerless, especially communities of 
color, who often live right next to power plants and refineries 
and busy roadways. You know, 4 million kids each year develop 
asthma simply because they have the misfortune of living near a 
major roadway. If you are a parent and your child uses an 
inhaler, these statistics are very real to you, and shame on 
all of us for not already doing more to protect those children. 
The health risks associated with climate change carry a steep 
human toll and economic cost. NRDC and the University of 
California in San Francisco recently teamed up to try to 
quantify that cost. When you stack up fewer than a dozen 
climate-related events in 2012, including wildfires in Colorado 
and Washington State, Lyme disease in Michigan, and algal 
blooms in Florida, among others, you get $10 billion in 
healthcare costs. About 65 percent of those medical bills were 
paid for by Medicare and Medicaid, pointing to the outsized 
harm of climate change to older adults and low-income people.
    Yes, climate change is the world's biggest public health 
challenge today, but it is also an incredible opportunity for 
all of us because we can tackle this, and we can invest in the 
kind of things we need to make a better future. We can move 
solutions that are already available, the clean energy that is 
the revolution of today. We can make healthier communities. 
That is what this committee is all about, turning the climate 
crisis into the biggest opportunity we have to invest in the 
future for ourselves and our children. Nationally, the cost of 
solar and wind dropped more than 25 percent last year alone. 
From 2010 to 2018, wind, solar, and geothermal more than 
tripled its proportion of our natural energy mix. We are 
winning, folks, when it comes to clean energy. We have to start 
acting like it, celebrating our success and grabbing for more. 
Energy efficiency, which is essential to decarbonization, 
employs 2.3 million people, which is twice as many as the 
entire fossil fuel industry. The regional greenhouse gas 
initiative in the northeast, which is a multi-state effort to 
cut carbon pollution from the power sector, it has delivered 
billions of dollars in health benefits, and it has led to 
cleaner and lower infant mortality rates.
    I just will not buy the argument that economic hardship 
accompanies public health protections. In fact, I believe it is 
exactly the opposite, and we have shown that time and time, 
again. You know, my kids and grandchildren are my moral 
compass. They are my reason to sit here today, and I ask each 
of you to think about who you are fighting for and what you are 
doing to defend our kids' health and their future.
    I look forward to continuing to work with the select 
committee as you build your climate policy recommendations for 
Congress. Thank you very much.
    [The statement of Ms. McCarthy follows:]

Written Testimony of Gina McCarthy, Natural Resources Defense Council, 
        Before the House Select Committee on the Climate Crisis

Hearing on: Creating a Climate Resilient America: Overcoming the Health 
                      Risks of the Climate Crisis

                            February 5, 2020

    Thank you to Chairwoman Castor, Ranking Member Graves, and members 
of the select committee for holding this hearing. Our climate crisis 
continues to hurt our economy, threaten our national security, and harm 
public health. That's what I want to focus on today--how climate change 
is making people sick, what government should do about it, and the 
policies we need, not only protect and improve public health, but 
create a brighter future for all Americans.
    I have three children, Daniel, Maggie, and Julie. I'm also lucky 
enough to have two grandkids to love and cherish. I cannot help but 
think that they will only be 32 and 31 years old in 2050--the year when 
science tells us we must achieve a zero-carbon economy, if we hope to 
keep pollution to levels that avoid the most destructive impacts of 
climate change. Before these children were born, 2050 seemed far away; 
but not anymore. I remember the first time that my child was handed to 
me right after I gave birth. I looked at my son Daniel and at first 
glance fell impossibly in love with him. But in some ways, I was 
terrified, too. From that moment forward, my future and my happiness 
was no longer about me, they were dependent on the health and happiness 
of my son, my daughters--and now, my grandchildren. It was my 
responsibility to protect them as best I could and it's why I keep 
fighting today. That's what climate change is about. It's that 
personal.
    I spent 4 years running the Environmental Protection Agency. It was 
the honor of my lifetime to work alongside such smart, hardworking and 
committed career staff. EPA's mission is to protect public health--and 
its success is measured in human lives saved, fewer kids with asthma 
attacks, and how well we protect those most vulnerable from harm.
    Climate change came under our purview because, at its core, this is 
an issue of pollution and public health. This is an issue of protecting 
people, not just the planet for the planet's sake.
    I also worked for six governors prior to working for President 
Obama. Five of them were Republicans. None of them told me I should 
make sure to deliver contaminated water to their house. None of them 
told me they wanted their grandchildren to breathe dirty air. None of 
them told me to ignore the vastly unfair pollution concentration in 
communities of color. Pollution, including carbon pollution that fuels 
climate change, is not--and should not be--a partisan issue.
    But I recently made the shift after 35 years in government to take 
the helm of one of the premier environmental advocacy organizations in 
the world, the Natural Resources Defense Council. I never once 
questioned whether any work other than public service could be more 
productive, fulfilling, or important. I went to NRDC because they do 
the necessary work of lifting up stories and delivering the scientific 
analysis that clearly shows the connection between climate change and 
health. The risks are real--families are facing harm and decision 
makers with the power to act need to continually and loudly be shown 
the truth.
    I joined NRDC because we must rebuild our long-standing public 
health protections, resuscitate our efforts to combat climate change, 
and restore science as the foundation of sound public policy. We must 
end the destruction of cost-effective laws and regulations like the 
Mercury and Air Toxics Standards and the Clean Car Rules; and we must 
end the marginalization of career professionals, scientists, and 
experts through relocations and reassignments.
    I'm here to preserve, protect, and defend our irreplaceable natural 
resources, our precious wildlife, and the biodiversity we all depend 
on--a sacred obligation that historically has enjoyed strong bipartisan 
support.
    The era of willful ignorance and flat-out denial of our climate 
crisis must end. It's an urgent challenge intensifying by the hour; we 
must work to change the way we fuel the world's economies.
    I am here to talk about why climate change is the most significant 
public health challenge in the world today, but also why it can be the 
most important public health opportunity of our lifetime. I want us to 
stop focusing on what we are trying to avoid, and instead build the 
future we want to see. I want us to stop just explaining why we must 
run from pollution and devastation and start talking about investing in 
the kind of future we need, a future that is clean, healthy, more just, 
more sustainable, and no longer reliant on fossil fuels.
    Building a climate-resilient America means real investments--
investments that recognize the steep health costs of inaction. It means 
recognizing that pollution kills, and that it is not an equal 
opportunity killer. It disproportionately poisons our children and the 
elderly, the poor and the powerless, and communities of color.
    While we could spend this entire hearing on the vast and complex 
health harms fueled by climate disruption; today, I'll spend time 
briefly detailing a few major areas of concern.
    Climate-fueled disasters and rising temperatures are already making 
people sick. In just the last few years, wildfire smoke has choked 
major cities in the West. Record drought has starved farming 
communities of safe drinking water. And hurricanes in the Southeast 
have contributed to a growing mental health crisis tied to increased 
suicide.\1\ The Lancet Countdown on health and climate change, an 
annual snapshot developed by 35 academic institutions around the world, 
reports that losses in crop yield, increases in water-borne disease, 
and lethal weather events will profoundly affect ``the life of every 
child born today.'' The authors write: ``Without accelerated 
intervention, this new era will come to define the health of people at 
every stage of their lives.''
    Climate change is worsening air pollution. Roughly 80 percent of 
our country's climate-warming pollution, and most of the other air 
pollution that causes or exacerbates heart and lung diseases, comes 
from burning coal, oil, and natural gas. One of the many harmful 
byproducts of fossil fuels are small particles called PM2.5. In 2016, 
PM2.5 contributed to the early deaths of more than 64,000 Americans. 
These types of environmental health risks widened inequality. 
Communities of color living closest to power plants, oil and gas 
operations, and busy roads bore the heaviest burden of this 
pollution.\2\ In 2015, African American children were 4 times more 
likely to go to the hospital for asthma and 10 times more likely to die 
from asthma than non-Hispanic white children.\3\ The first few rungs of 
any ladder of opportunity are clean air to breathe and clean water to 
drink. The government's job and this body's focus, is to act to protect 
people from pollution and balance the scales for those most impacted.
    Climate change is increasing the intensity and frequency of 
dangerously hot days. Heat waves have gotten worse in 61 percent of 
major Southeast cities, including Birmingham and New Orleans, to name a 
few.\4\ Extremely hot days aren't just an inconvenience: they lead to 
brain and kidney damage, premature births, heart attacks, and stroke. 
Research from the Harvard T.H. Chan School of Public Health shows we're 
seeing heat impact health, cognitive function, reaction time, 
impulsivity, aggression, and violence. In Boston and across cities in 
the U.S. there are significant increases in police and fire department 
calls on hot days related to medical emergencies, violent and 
aggressive crimes, and accidents. Outdoor workers and professionals, 
including members of our military, are vulnerable to heat-related 
illnesses. Take a moment to picture where many of our military bases 
are located at home and abroad. Then think about all the heavy gear 
service members carry and the strain from training and fighting. From 
2014 to 2018, the rate of heat stroke among active duty members 
increased 73 percent and the rate of heat exhaustion increased nearly 
53 percent. Across the country, extreme heat also led to the loss of 
approximately 1.1 billion potential work hours from 2000 to 2018--with 
the largest losses in states like Louisiana, Alabama, Georgia, and 
Florida.
    The health risks associated with climate change--death, illness, 
disruptions to care from disasters, and lost workdays--carry a steep 
economic cost. NRDC and the University of California, San Francisco 
recently teamed up to quantify that cost. If you add up the costs of 
just 10 climate events in 2012, including wildfires in California, Lyme 
disease in Michigan, and algal blooms in Florida, among others--you get 
about $10 billion in health costs across the United States. And about 
65 percent of the illness costs were paid for by Medicare and Medicaid, 
pointing to the outsized harm of climate change to older adults and 
low-income people. A recent analysis of Medicaid use in and around 
Baton Rouge, Louisiana, showed higher numbers of claims and higher 
costs to the system after catastrophic flooding in 2016. About a third 
of visits among men and women were for substance abuse and depression-
related disorders, respectively. This study echoes the findings of so 
many others: that severe weather events are a significant threat to our 
mental health.
    Sadly, the story in Baton Rouge is a familiar one across the 
country. As I said, pollution is not an equal opportunity killer. The 
imbalance in harm demands we aim for balance in our solutions. 
Significant amounts of money will need to be spent to stop carbon 
emissions and to adapt to our changing climate--the longer we take, the 
higher the cost. A 2019 study by EPA scientists found that proactively 
adapting roads and rail networks to climate disruption would prevent 
twice as much damage as reactively adapting.\5\ But how much bang for 
the buck we get from these investments depends on where we spend it and 
on what. Are we going to be smart and focus our resources on protecting 
the people who are most vulnerable today, the people who need 
investment quicker and in larger amounts, the people living in places 
where people are dying today? If we do, we can build momentum to get us 
on the path towards a more sustainable and more just future.
    I'm proud that NRDC, along with other major environmental groups, 
has signed onto the Equitable and Just National Climate Platform. The 
two key principles of the platform are, to enact solutions that address 
the legacy of pollution, and to make justice and equity a priority in 
any climate solution.
    The good news is we have solutions that shift us away from carbon 
pollution and move us towards clean energy and cleaner communities. We 
have plenty of opportunities to make real progress. Even if progress is 
incremental, forward movement matters. It shows what's possible, 
broadens engagement, and builds hope. People will continue to see the 
clear benefits of a low carbon future--and will continue to want it, 
demand it, and run towards it.
    So how do we create that future? First and foremost, we need to 
tackle the root cause of climate change: pollution from fossil fuels.
    Congress needs to lead in reducing emissions in the U.S. and 
beyond. It must speak out and respond to the Trump administration's 
efforts to undermine fuel efficiency standards and clean power 
regulations, among many other rollbacks, that are taking us in the 
wrong direction and putting public health at risk.
    What we need are policies that get us to net-zero emissions 
economy-wide by 2050 at the latest. NRDC sees a number of possible 
paths to achieving this and is eager to work with anyone and everyone 
in Congress to achieve that goal.
    Ramping up energy efficiency, which is essential to decarbonization 
has been and will continue to be a job creator; the U.S. is home to 2.3 
million energy efficiency jobs, employing twice as many workers as the 
entire fossil fuel industry.\6\ One hundred percent clean energy is 
within reach, if we keep investing in innovation. The three states 
leading the country in producing wind power are Texas, Iowa, and 
Oklahoma. Why? Because it makes clear economic sense: nationally, the 
cost of solar and wind power dropped more than 25% last year alone.\7\ 
From 2010 \8\ to 2018,\9\ wind, solar and geothermal more than tripled 
its proportion of our national energy mix.
    For the transportation sector, the single largest source of carbon 
emissions, that means a zero emission vehicle market transformation 
through federal incentives for vehicle purchases and investment in 
networked charging infrastructure like those found in H.R. 2256, the 
Drive America Forward Act or S. 674, the Clean Corridors Act. And it 
means states working together to protect the California waiver and 
expand its reach, as well as regional carbon action like the cap and 
invest strategy that states are employing as part of the Transportation 
and Climate Initiative (TCI). This kind of transformation to a clean 
economy will create countless jobs and opportunities. There are already 
3.2 million Americans working in clean energy and vehicles right now.
    The power sector is the nation's second largest source of carbon 
pollution, down from being the largest source a decade ago. Why? 
Because a clean energy transition is already underway. States across 
the country are seeing the cost and health benefits of shifting power 
generation to cleaner sources. The economically prudent thing to do is 
also the prudent public health thing to do. But it all needs to happen 
faster and recognize the hardship for some workers and communities as 
economic activity shifts to cleaner energy production and delivery. 
That's why it's essential that inclusive and meaningful transition 
plans for workers are designed and adopted for those currently employed 
in highly-polluting sectors, and for communities that have depended on 
those industries for so long.
    Let me give you an example of effective regional action: the 
Regional Greenhouse Gas Initiative in the Northeast--a multi-state 
effort to cut carbon pollution from the power sector, which also has 
reduced other forms of air pollution that I helped design and implement 
when I was working for the State of Connecticut. RGGI has had a 
measurable impact on improving health. In the last two decades, the cap 
and invest program has resulted in billions of dollars in health 
benefits \10\ and is associated with decreased mortality of 
infants.\11\ Not to mention, RGGI states continued to grow their 
economies while cutting carbon pollution nearly in half.
    One of the most remarkable things about cleaning up our power 
plants, our cars, and our factories is that we don't have to wait for 
decades to see results. A recent review by the Forum of International 
Respiratory Societies found that community members can experience 
better health just two weeks after significant cuts to nearby sources 
of pollution. Benefits include fewer premature births, missed school 
and work days, and deaths from heart and lung problems.\12\
    As we implement these climate solutions, we also need to rethink 
how we approach the delivery of health services, how we build and 
renovate critical infrastructure, and how we prepare for and respond to 
disasters. An obvious place to start is with our public health system. 
At its core, public health is about keeping people healthy by 
preventing harm rather than by treating symptoms. But right now, annual 
public health spending in the United States amounts to just $255 per 
person.\13\ Cash-strapped state and local public health officials 
simply cannot focus on the climate crisis when they are dealing with 
issues like the opioid crisis or coronavirus. NRDC strongly supports 
Congressional action to increase funding and capacity for the U.S. 
Centers for Disease Control's Climate and Health program, which is the 
only direct federal support for state and local agencies trying to 
prevent climate-related health harms.
    We must also prioritize the climate resilience of our hospitals and 
other healthcare facilities. Despite recent progress in disaster 
preparedness, we've seen too many examples of extended disruptions in 
care delivery, permanent hospital closures, and massive layoffs of 
healthcare workers. Federal funding for hospitals and other healthcare 
facilities should be conditioned on climate planning and risk 
assessments. Babies were literally being born in smoke filled hospitals 
in Australia, due to the historically devastating climate-charged 
wildfires that have burned down massive swaths of their country.\14\ 
The United States has roughly 200 federal hospitals that should be put 
through ``climate and health stress tests'' to ensure they can maintain 
essential services in a hotter and wilder world.
    One piece of legislation that would address both areas is the 
Climate Change Health Protection and Promotion Act of 2019 (H.R. 1243/
S. 523). The bill would, among other things, result in a national 
action plan to ensure our public health and healthcare systems are 
ready for the climate crisis.
    And what does the world look like if we succeed at both ending our 
dependence on deadly fossil fuels and creating a more climate-resilient 
society? It looks cleaner, safer, healthier, and more prosperous.
    It looks like workers returning safely home at the end of their 
shift. It looks like shady, tree-lined neighborhoods with clean, 
breathable air and drinkable water. It looks like diverse options for 
clean transportation that get people where they need to go on time. And 
it looks like a family sitting down to a table with enough good food to 
go around, and without worrying about paying their medical bills or 
packing for yet another evacuation to get out of harm's way.
    I know that in the United States we have an administration that 
doesn't want to recognize climate change or climate science, but this 
administration doesn't represent the views or the value or the 
character of the United States of America. Just the opposite. The anti-
science intransigence of the Federal Government is igniting action 
across our country at the local, state and regional levels.
    I am confident that everyone in this room--no matter their party 
affiliation--is here to do the hard work needed to leave this country, 
and our world, better than we found it. We are here to defend the 
future for our children. I'm a mother and a grandmother--my kids and 
grandkids are the face of climate change for me; they are my moral 
compass and my reason to sit here today. They are the reason I fight.
    I ask the members, and everyone else here today to think about who 
you fight for, why you fight, and what you can do to help.
    At times like these, when the furor of partisan politics seems to 
run so hot and so deep that it's can be overwhelming, we cannot lose 
sight of the core values that bind us together. Surely one of those 
values must be protecting the health and wellbeing of our kids.
    Thank you for convening this critical conversation and for your 
attention. I look forward to continuing to work with the select 
committee as you develop your climate policy recommendations for 
Congress.
---------------------------------------------------------------------------
    \1\ https: // www.vox . com / policy - and - politics / 2018 / 3 / 
20 / 17138990 / puerto - rico - hurricane - maria - 6 - months and 
https://www.usnews.com/news/best-states/north-carolina/articles/2018-
11-05/suicide-raises-florence-death-toll-to-41-in-north-carolina.
    \2\ https://www.lancetcountdownus.org/2019-lancet-countdown-us-
brief.
    \3\ https://www.minorityhealth.hhs.gov/omh/
browse.aspx?lvl=4&lvlid=15.
    \4\ https://nca2018.globalchange.gov/chapter/19/.
    \5\ https://www.nature.com/articles/s41558-019-0444-6.
    \6\ https: // www.nrdc.org / experts / lara-ettenson / energy - 
efficiency-jobs-soar-now-make-them-available-all.
    \7\ https: // www.utilitydive.com / news / renewable-energy-prices-
keep-falling-when-do-they-bottom-out/555822/.
    \8\ https://www.eia.gov/electricity/data/state/.
    \9\ https://www.eia.gov/electricity/data/state/.
    \10\ https://fas.org/sgp/crs/misc/R41836.pdf.
    \11\ https://bmjopen.bmj.com/content/9/4/e024735.
    \12\ https://www.atsjournals.org/doi/10.1513/AnnalsATS.201907-
538CME.
    \13\ https: // www . tfah . org / wp - content / uploads / 
archive / assets / files / TFAH - 2018 - InvestInAmerica Rpt-FINAL.pdf.
    \14\ https://www.insider.com/australian-bushfires-babies-delivered-
in-smoky-hospitals-2020-1.
---------------------------------------------------------------------------
    ###

    Ms. Castor. Thank you.
    Dr. Bole, you are recognized for 5 minutes.

              STATEMENT OF APARNA BOLE, M.D., FAAP

    Dr. Bole. Thank you. Thank you, Chair Castor, Ranking 
Member Graves, and committee members, and good morning. My name 
is Dr. Aparna Bole, and as Chair Castor mentioned, I am a 
pediatrician practicing in Cleveland, Ohio, and I am here today 
on behalf of the American Academy of Pediatrics as chair of the 
AP Council on environmental health. Thank you for the 
opportunity to testify today about the critical child health 
risks of climate change and the child health benefits of 
climate solutions.
    Children are disproportionately burdened by and uniquely 
vulnerable to the health impacts of climate change as a result 
of their physiology and because of their developmentally 
appropriate behaviors.
    Pediatricians see firsthand how kids' health is affected by 
climate change today. For example, in my home State of Ohio, we 
care for infants hospitalized during increasingly frequent 
extreme heat events, children whose drinking water is less safe 
because of how increased extreme precipitation and increased 
water temperatures promote toxic algae in our great lake, and 
children with asthma exacerbations because of high ozone and 
allergens in the air we breathe.
    These and other climate change related phenomena, such as 
increased frequency of severe weather events and wildfires, 
changing patterns of vector-borne diseases, impaired food 
security, and mental health effects. These harm kids across the 
United States and are described in detail in my written 
testimony. One of my young patients is a sixth grader with 
asthma whom I will call Jordan. Jordan is obese, and I have 
been working with him and his family on a healthier diet and 
exercise. Last summer he signed up for a sports camp at the 
local Y just like we planned, but when he came in for his 
sports physical, I found myself conflicted. I praised him, but 
I also had to warn his parents to watch the air quality index. 
Outdoor summer sports practiced on a high ozone day could 
dangerously exacerbate his asthma. The very thing I had 
recommended to help promote Jordan's health, now could be 
dangerous, in part, because of climate change. Just as Jordan 
struggled to balance playing outside in the summer with 
ensuring that he can breathe, I struggle with caring for my 
patients when climate change affects so many intersecting 
aspects of their lives.
    Pediatricians have several recommendations to Congress to 
address this challenge. Comprehensive climate legislation 
should accelerate energy efficiency and renewable energy 
production while decreasing incentives for fossil fuel 
production. The AP supported the original 2015 clean power 
plan, and we urge the reinstatement of this vital policy. The 
AP also supports the implementation of an effective carbon fee 
and dividend regime to reflect the true societal cost of carbon 
pollution, including its health costs. Any such policy must 
preserve EPA's proven authority to regulate carbon pollution. 
To achieve net zero carbon pollution, it is essential to reduce 
the carbon footprint of our transportation systems. This should 
include reducing motor vehicle emissions, expanding public 
transportation, and increasing construction of safe bikeways 
and walkways. Climate legislation should improve the 
adaptability and resilience of our food system by promoting 
crop resilience and reducing the greenhouse gas contributions 
of animal agriculture. The U.S. healthcare sector must adapt to 
both reduce its contribution to climate change and improve its 
resilience. Federal policy should incentivize energy 
efficiency, clean energy, and adaptation strategies for the 
health sector. We must also educate healthcare providers and 
vulnerable patients about climate-associated health risks and 
how climate change impacts our clinical practice.
    The AP supported the Paris Agreement to engage the global 
community in emissions reduction targets and has supported H.R. 
9, the House-passed legislation to maintain the U.S. commitment 
to the Paris Agreement's emissions reduction targets. Finally, 
we encourage Federal policy to emphasize environmental justice, 
acknowledging the disproportionate impact of climate change's 
health effects on historically marginalized populations, such 
as indigenous communities, other communities of color, and 
those who are socioeconomically disadvantaged. While children 
bear an outsized burden of the health impacts of climate 
change, climate solutions can support cleaner air, sustainable 
communities with safe places for our kids to walk and play, and 
healthier food systems. These have immediate child health 
benefits and help to ensure that future generations of children 
will thrive.
    Thank you, again, for the chance to testify today, and I 
look forward to answering your questions.
    [The statement of Dr. Bole follows:]

                   Testimony of Aparna Bole, MD, FAAP

 Chair, AAP Council on Environmental Health on behalf of the American 
                         Academy of Pediatrics

 Testimony Before the U.S. House Select Committee on the Climate Crisis

                 Creating a Climate Resilient America:

           Overcoming the Health Risks of the Climate Crisis

                            February 5, 2020

    Good Morning Chair Castor, Ranking Member Graves, and Committee 
Members. My name is Dr. Aparna Bole. I'm here today on behalf of the 
American Academy of Pediatrics (AAP), a non-profit professional 
organization of 67,000 primary care pediatricians, pediatric medical 
subspecialists, and pediatric surgical specialists dedicated to the 
health, safety and well-being of infants, children, adolescents, and 
young adults. I currently serve as the Chair of the AAP Council on 
Environmental Health, leading the Academy's work developing our 
evidence-based policy statements on issues impacting children's health, 
our efforts to educate pediatricians and parents about environmental 
health concerns, and our advocacy at every level of government for 
policies that improve children's environmental health.
    In addition to my role with the AAP, I am an Associate Professor of 
Pediatrics at Case Western Reserve University School of Medicine, and I 
am a practicing pediatrician at UH Rainbow Babies and Children's 
Hospital, where I serve as Medical Director of Community Integration.
    I would like to extend our appreciation to the Committee for 
holding this critical hearing. The AAP views addressing climate change 
as a vital child health priority, and I am grateful for the opportunity 
to testify today about the child health impacts of climate change, the 
child health benefits of climate solutions, and federal policy 
opportunities to address these.
    In clinics and hospitals throughout the United States, 
pediatricians are witnessing the immediate harms and risks that climate 
change poses to the health of their patients. The AAP has long called 
for policies to address the global challenge of climate change and 
protect the health and wellbeing of children. Underpinning that work is 
the Academy's policy statement \i\ dedicated to articulating the 
science behind the ways in which climate change impacts child health 
and the opportunities to address it. My testimony today will outline 
the scientific consensus on climate change, highlight the ways in which 
climate change is uniquely harmful to children's health, and offer 
policy recommendations for your consideration to address those effects 
and improve the health of children.
Children are Uniquely and Disproportionately Harmed by Climate Change
    Climate change is affecting the health of children in the United 
States here and now, and pediatricians see these effects in their 
patients every day. Children are uniquely vulnerable to the health 
impacts of climate change, and any comprehensive response to climate 
change must take child health into account. The World Health 
Organization estimates that over 80 percent of the existing global 
burden of disease attributable to climate change occurs in children 
younger than 5 years old.\ii\ Children's immature physiology and 
metabolism; critical windows of development; higher exposure to air, 
food, and water per unit of body weight; unique developmentally 
appropriate behavior patterns; and dependence on caregivers place them 
at much higher risk of climate-related health burdens than adults.\iii\ 
The health impacts of climate change are greatest for children and 
communities already experiencing socioeconomic disadvantage,\iv\ which 
also presents significant environmental justice concerns.
Climate Change is a Public Health Crisis that Uniquely and 
        Disproportionately Harms Children
    Climate change is an ever-growing global threat that has unique and 
disproportionate impacts on children. A large consensus of climate 
scientists now conclude based on extensive scientific evidence that the 
major physical, chemical, and ecological changes of our planet can be 
attributed to human activity, which includes the burning of fossil 
fuels. Atmospheric carbon dioxide and other greenhouse gas levels began 
to increase about 100 years ago, leading to subsequent increases in 
global temperatures.\v\ Warming of the planet is unequivocal. According 
to the Intergovernmental Panel on Climate Change, each of the last 3 
decades has been successively warmer than any preceding decade since 
1850. The globally averaged temperature (combined land and ocean 
surface) increased approximately 1+C between 1850 and 2012. Since 
recordkeeping began in 1880, the global sea level has risen 
approximately 8 inches because of melting of glaciers and thermal 
expansion of warmer water. In turn, the effects of climate change are 
creating myriad significant public health concerns. These effects are 
especially harmful to the health and wellbeing of children.
    Climate change is affecting the health of children in the United 
States here and now, and pediatricians see these effects in their 
patients every day. Children are uniquely vulnerable to the health 
impacts of climate change, and any comprehensive response to climate 
change must take child health into account. The World Health 
Organization estimates that over 80 percent of the existing global 
burden of disease attributable to climate change occurs in children 
younger than 5 years old.\vi\ Children's immature physiology and 
metabolism; critical windows of development; higher exposure to air, 
food, and water per unit of body weight; unique developmentally 
appropriate behavior patterns; and dependence on caregivers place them 
at much higher risk of climate-related health burdens than adults.\vii\ 
The health impacts of climate change are greatest for children and 
communities already experiencing socioeconomic disadvantage,\viii\ 
which also presents significant environmental justice concerns.
How Climate Change Impacts Children's Health
Increasing Frequency and Intensity of Natural Disasters and Extreme 
        Weather
    Extreme weather events, including severe storms, floods, and 
wildfires, directly threaten children with injury, displacement, and 
death. The frequency of reported natural disasters has increased over 
the past 40 years. Three times as many extreme weather events occurred 
between 2000 and 2009 as occurred between 1980 and 1989. The scale of 
natural disasters has also increased because of deforestation, 
environmental degradation, urbanization, and intensified climate 
variables. These events place children at risk for injury,\ix\ loss of 
or separation from caregivers,\x\ exposure to infectious diseases,\xi\ 
indoor exposure to mold and other allergens,\xii\ \xiii\ and a uniquely 
high risk of mental health consequences, including posttraumatic stress 
disorder, anxiety disorders, depression, adjustment disorder, and 
suicide in adolescents.\xiv\ \xv \
    The distinctive health, behavioral, and psychosocial needs of 
children subject them to unique risks from these events. Disasters can 
cause irrevocable harm to children through devastation of their homes, 
schools, and neighborhoods, all of which contribute to their 
physiologic and cognitive development.\xvi\ Adverse Childhood Events 
(ACEs), such as the destruction of homes, schools and neighborhoods, 
family structures and communities, have impacts beyond childhood on 
adult health. Individuals with a history of ACEs are more likely to 
have hypertension, diabetes, and other adult health problems across the 
life span.\xvii\
Rising Heat-Related Morbidity and Mortality
    Extreme heat is a leading cause of weather-related death in the 
U.S., and children suffer directly from the increased severity and 
duration of heat waves. Studies performed in multiple countries have 
shown an increase in child morbidity and mortality during extreme heat 
events. Infants younger than 1 year and high school athletes seem to be 
at particularly increased risk of heat-related illness and death. The 
experience of unusually warm temperatures during pregnancy is 
associated with increased risk of preterm birth,\xviii\ which increases 
the risk of immediate and long-term health problems as well as infant 
mortality. Researchers estimate there is a greater than 90% chance that 
by the end of the 21st century, average summer temperatures will exceed 
the highest temperatures ever recorded in many regions across the 
world, putting children and their families at increasing risk of heat 
injury.\xix\ Heat waves have become more frequent and/or prolonged in 
many regions, and the number of extreme cold waves in the United States 
is also the lowest since recordkeeping began.\xx\
Worsening Air Quality
    Air quality can be reduced through temperature associated 
elevations in ground-level ozone concentration, increased pollen counts 
and allergy season duration, and wildfire smoke. All of these factors 
exacerbate respiratory disease and asthma in children.\xxi\ Climate 
change-related warming leads to elevated ozone pollution, which are 
particularly harmful to children's developing lungs and brains and 
linked to poor birth outcomes, infant mortality, missed school days, 
and asthma attacks.\xxii\ Fossil fuel combustion also releases harmful 
pollutants such as particulate matter, which has been linked to 
premature death, asthma exacerbations, and other respiratory symptoms 
that are most likely to affect children. Higher CO2 concentrations 
cause ragweed to produce more pollen, and warmer temperatures allow 
these plants to bloom longer. The allergy season is longer now, 
especially in northern latitudes. Seasonal allergies affect 10 percent 
of American children, and every spring and fall pediatric offices are 
filled with children suffering from severe allergies.\xxiii\ \xxiv\ 
\xxv\ \xxvi\ These climate change-related elevations in ozone and 
intensification of the aeroallergen season both disproportionately harm 
children with asthma. African American and Hispanic children have 
higher rates of asthma and are more likely to suffer from these air 
pollution hazards that are exacerbated by climate change.
Changing Patterns of Infectious Diseases
    Climate influences the behavior, development, and mortality of a 
wide range of living organisms, some of which have the potential to 
carry or cause pediatric infection. Determining the effects of climate 
change on infectious diseases is complex because of confounding 
contributions of economic development and land use, changing 
ecosystems, international travel, and commerce. Climate change-related 
warming has been linked to the northern expansion of Lyme disease in 
North America and \xxvii\ increase in mosquito-carried viruses,\xxviii\ 
and has been projected to increase the burden of child diarrheal 
illness, particularly in Asia and sub-Saharan Africa. Concern has also 
been raised for climate links to emerging infections, including 
coccidioidomycosis and amoebic meningoencephalitis. Further 
investigation into climactic influence on infectious diseases and their 
impact on children is needed to ensure we understand the full extent of 
these connections and how best to address them.\xxix\
Reducing the Food Supply and Increasing its Costs
    Altered agricultural conditions, including extreme heat, expanded 
water demands, and increased severe weather events, will affect food 
availability and cost, particularly in vulnerable regions in which 
child undernutrition is already a major threat. The decreased protein, 
iron, and zinc content of certain staple crops like rice has been 
demonstrated for plants grown under increased CO2 conditions, carrying 
significant implications for child nutrition.\xxx\ These detrimental 
effects will exacerbate U.S. food insecurity and undermine ongoing 
efforts to promote high-quality nutrition for all children.
Young People are Speaking Out
    Given the ways that climate change is disproportionately harming 
children and adolescents, it is unsurprising and inspiring to see so 
many young people advocating for solutions to our ongoing climate 
crisis, including before this very Committee. Pediatricians have been 
honored to stand behind young people calling for action to address the 
ways climate change is already affecting them and will continue to harm 
their lifelong health. We were grateful to have the opportunity to file 
an amicus curiae \xxxi\ brief supporting the plaintiffs in the Juliana 
v. U.S. case, in which youth filed suit against the Federal Government 
over its inaction to address the ways climate change is harming them. 
While we were disappointed to see the Ninth Circuit rule that the 
courts cannot redress those concerns, we continue to proudly stand in 
support of young people advocating for solutions to this public health 
problem that particularly affects them.
The Need for Federal Action
    Given these unique circumstances and vulnerabilities, Congress must 
act to address the child health threat of climate change. Children are 
already disproportionately bearing the burden of climate change and 
will continue to do so if we do not enact significant policy changes. 
Not only do we need to act, but we need to specifically address the 
ways climate change affects children in both our mitigation and 
adaptation efforts. We thank the Committee for its important work on 
these efforts and urge you to ensure that any comprehensive legislation 
to address climate change include specific considerations on addressing 
and mitigating its impact on children.
Federal Policy Opportunities to Address the Child Health Impact of 
        Climate Change
    While the child health detriments of climate change are manifold 
and daunting, the encouraging news is that there are policy 
opportunities to address it that yield child health benefits. While the 
science underpinning novel responses grows and evolves daily, we 
already know much of what needs to be done, and simply need decisive 
bipartisan action to advance a comprehensive climate change and child 
health agenda. The following are our recommendations across several 
policy sectors.
De-Carbonizing the Energy Sector
    Power plants are a significant contributor to climate change, 
generating over one-quarter of all U.S. greenhouse gas pollution. To 
decarbonize the energy sector, comprehensive climate legislation should 
promote energy efficiency and renewable energy production at the 
federal, state, and local levels while decreasing incentives for 
continued production and consumption of carbon-intensive fuels such as 
coal, oil, and gas.
    The AAP supported the Clean Power Plan (CPP) in 2015, and in 2018 
and 2019 opposed the U.S. Environmental Protection Agency's (EPA) 
proposed attempts to undermine its effectiveness. The CPP would have 
significantly limited carbon pollution from both new and existing 
sources of carbon pollution from fossil fuel-fired power plants. In 
addition to addressing climate change, this policy would have had the 
added benefit of also decreasing co-pollutants from power plants, such 
as particulate matter. Reducing these pollutants under the CPP would 
have prevented up to 6,600 premature deaths. In addition, it would have 
resulted in up to 150,000 fewer asthma exacerbations in children, and 
180,000 fewer missed school days in the year 2030.\xxxii\ EPA has clear 
authority to regulate carbon pollution from power plants, and we urge 
the reinstatement of this vital policy.
    In addition, the AAP supports terminating federal subsidies and tax 
incentives for the production and transport of coal, oil, and gas, and 
increasing federal subsidies for clean, renewable energy sources such 
as wind, solar, and hydropower. The AAP also supports the 
implementation of an effective carbon fee and dividend regime to 
accurately reflect the true societal of carbon pollution, including its 
health costs.
    It is critical that any such policy regime not undermine critical 
public health protections in the Clean Air Act, including the EPA's 
authority to regulate carbon pollution under section 111(d). EPA's 
proven authority to regulate hazardous air pollutants under the Clean 
Air Act, twice affirmed by the U.S. Supreme Court, is a vital tool to 
address climate change and protect health, and no legislation should 
undermine, pause, or weaken that authority. Existing legislative 
proposals to institute a carbon fee also include provisions to halt 
certain vital EPA regulatory authorities, roll back climate safeguards, 
or immunize fossil fuel companies against any potential liability for 
damages caused by their contributions to climate change. Due to the 
urgency of addressing climate change with all available tools, 
comprehensive climate legislation must not weaken existing avenues of 
reducing carbon pollution, such as EPA's Clean Air Act authority. The 
AAP would oppose decarbonization legislation that eliminates these 
essential public health protections.
Reducing Carbon Pollution from Transportation
    To achieve net zero carbon pollution, it is essential to reduce the 
carbon footprint of transportation systems. Climate mitigation 
strategies focused on reforming the transportation sector have the 
potential to spur significant positive impacts on child health through 
improved safety and physical activity.\xxxiii\ The best available 
science suggests that tailpipe emissions may be responsible for 1 in 5 
children who develop asthma.\xxxiv\ Via reduced emissions alone, clean 
transportation is estimated to prevent 120,000 premature deaths by 2030 
and 14,000 annually thereafter in the U.S.\xxxv\ Other studies have 
shown that the health benefits of lower-emission motor vehicles are 
increased when combined with the promotion of active travel such as 
walking or biking, which reduces the prevalence of chronic diseases 
such as diabetes, dementia, ischemic heart disease, and cancer.\xxxvi\ 
\xxxvii\ The overall health benefits of such transportation strategies 
have been shown to save billions in public health spending.\xxxviii\ 
Comprehensive climate legislation should include expanding public 
transportation and increasing construction of safe bikeways and 
walkways, which both reduce greenhouse gas emissions and promote 
healthy childhood weight through active transportation.
Modernizing the Food System to Reduce its Carbon Footprint
    Strategies aimed at shifting food systems to decrease greenhouse 
gas emissions offer further potential to address environmental concerns 
while dramatically promoting child health.\xxxix\ The adoption of more 
plant-based diets in line with current dietary guidelines could reduce 
global mortality by 6-10% and food-related greenhouse gas emissions by 
29-70% by 2050 with global net health benefits from diseases like 
diabetes, heart disease, stroke, and cancer valued between US$1-31 
trillion.\xl\ In order to realize the full health benefits of such 
dietary change, evidence suggests that special attention must be given 
to reducing red meat consumption \xli\ and controlling sugar levels in 
more sustainable diets.\xlii\ In addition, it is important to support 
efforts to improve the adaptability and resilience of our food system, 
through research, development, and implementation of technologies and 
strategies that promote crop resilience and reduce the greenhouse gas 
contributions of animal agriculture.
Promoting Sustainable Community Development
    Climate change policies that preserve, create, and expand natural 
green environments directly impact the mental health of populations, 
with the strongest benefits occurring during childhood. An abundance of 
evidence suggests the relationship of public green spaces with greater 
mental wellbeing in a dose-dependent relationship.\xliii\ \xliv\ 
Prolonged exposure to green space specifically during childhood has 
been shown to decrease independently the risk of a wide range of mental 
illness later in life.\xlv\ \xlvi\ While the exact mechanisms are still 
being studied, research has shown that exposure to the natural 
environment decreases harmful thought patterns \xlvii\ and can even 
impact brain structure and development.\xlviii\ The importance of 
natural environments early in life has been substantiated with studies 
showing improved cognitive development and function with increased 
green space exposure.\xlix\ Adopting urban planning designs that 
incorporate open green spaces, walkability, reduced dependence on 
automobile transit, and climate change resilience while minimizing 
sprawl will decrease emissions while promoting child health.
Prioritizing Health Care Sector Mitigation and Adaptation
    The U.S. health care sector is a major contributor to climate 
change, producing 10% of U.S. greenhouse gas emissions.\l\ At the same 
time, health care systems are contending with consequences of climate 
change on patients and communities, and health care institutions also 
play an important role in communities' resilience in the face of 
climate change related events.
    To address the broad array of negative child health effects from 
climate change, it is essential that federal policies promote energy 
efficiency and the adoption of clean energy in the health care sector, 
as well as the adaptation, preparedness, and resilience of hospitals 
and health systems. Energy efficiency and clean energy can be important 
components of reducing the cost of health care delivery. We also 
encourage the development of essential adaptation strategies, and 
assisting state and local governments, public health agencies, and 
health professionals in implementation of these strategies. Disaster 
preparedness and response efforts should include the specific needs of 
children. National and international policymaking efforts should 
include extensive input from stakeholders in the health sector, as 
today's hearing demonstrates. In addition, we must educate health care 
providers and vulnerable patients about climate-associated health 
risks, as well as climate-associated effects on clinical practice--such 
as management of chronic diseases during periods of extreme heat or 
poor air quality, and alterations in the safety and efficacy of 
prescription medications.
Pursuing Additional Adaptation Strategies
    In addition to mitigation efforts such as achieving net-zero carbon 
emissions by 2050, comprehensive climate legislation must include 
additional adaptation measures to protect children and their families 
from the effects of climate change that inevitably will occur and are 
already occurring. These include developing and implementing effective 
early-warning systems for extreme weather events, and physical 
protection against those events. Federal policy should also support 
improved surveillance of climate-associated infectious diseases, 
including new and emerging pathogens. Finally, we encourage federal 
policy to promote enhanced community resilience, and an emphasis on 
redressing the environmental justice concerns climate change presents. 
Children's safety from climate change should not depend on the color of 
their skin or the zip code in which they were born.
Making Global Progress through Effective International Diplomacy
    Another crucial tool is the use of diplomacy and international 
cooperation to support global action in response to the climate crisis. 
The AAP supported the Paris Agreement to engage the global community in 
emissions reduction targets and has supported the House-passed 
legislation (H.R. 9) to maintain the U.S. commitment to Paris 
Agreement's emissions reduction targets. We encourage a focus on 
upholding U.S. commitments under that agreement as part of any 
comprehensive legislative response to climate change.
Promoting Response Strategies with Health Co-Benefits
    While climate change disproportionately impacts child health, 
decarbonization efforts also present an enormous opportunity to improve 
child health by maximizing the co-benefits of carbon pollution 
reduction. Reducing emissions of hazardous traditional air pollutants 
such as particulate matter, sulfur oxides, and air toxics along with 
carbon dioxide can yield greater health outcomes for children. Child 
exposure to hazardous air pollutants can cause direct health impacts 
such as neurologic deficits, respiratory tract illness, asthma 
exacerbations, and decreased lung function,\li\ \lii\ leading to 
downstream effects including increased school absences, emergency 
department visits, and hospitalizations.\liii\ \liv\ \lv\ \lvi\ Studies 
have also found associations between ambient air pollution and post-
neonatal infant mortality,\lvii\ \lviii\ low birth weight,\lix\ \lx\ 
\lxi\ \lxii\ and preterm birth.\lxiii\ \lxiv\ \lxv\ \lxvi\ Reducing 
these pollutants under the Clean Power Plan would have prevented up to 
6,600 premature deaths. In addition, it would have resulted in 3,700 
fewer cases of child bronchitis, up to 150,000 fewer asthma 
exacerbations in children, and 180,000 fewer missed school days in the 
year 2030.\lxvii\ Future decarbonization efforts should prioritize this 
potential for drastic improvements in child health outcomes through 
leveraged reductions of multiple pollutants within efforts to reduce 
greenhouse gas emissions.
    Reducing the carbon footprint of other sectors can also yield 
important child health co-benefits. For example, accessible public and 
active transportation, plant-based food availability, and green spaces 
can directly contribute to child health and wellbeing while at the same 
time reducing carbon pollution. Additional research into the health 
benefits of various decarbonization strategies could help policymakers 
choose the smartest investments to maximize co-benefits. The Federal 
Government currently provides no funding for such research, so 
directing funding for the research, surveillance, reporting, and 
tracking of climate-associated health effects would strengthen future 
comprehensive climate legislation.
    Every day, pediatricians confront the growing burden of chronic 
disease in children. Asthma, obesity, mental health, and long-term 
health effects related to premature birth are growing issues that we 
see in clinics across the nation. We have made tremendous progress in 
addressing these and other threats to children's health, and climate 
solutions are a way to further prevent some of these conditions or 
mitigate their severity. Plans for climate change mitigation present a 
tremendous opportunity to improve child health by maximizing the co-
benefits of environmental policies. Policies to promote cleaner air, 
facilitate active transportation, encourage more sustainable diets, and 
develop more connected communities can lead to enormous child health 
gains while preserving a healthy, sustainable environment in which 
generations of children can thrive.
Conclusion
    We appreciate the Committee's efforts to protect children and 
future generations from the health impacts of climate change. We hope 
that child health will be a key consideration as you develop any 
comprehensive legislative response, and we would welcome opportunities 
to further support and contribute to your work. Thank you again for the 
chance to testify today, and I look forward to answering your 
questions.

    \i\ Ahdoot S., Pacheco S.E., AAP Council on Environmental Health. 
Global Climate Change and Children's Health. Pediatrics. Nov 2015, 136 
(5) e1468-e1484. Available at:     
www.pediatrics.org/cgi/doi/10.1542/peds.2015-3233.
    \ii\ Zhang Y, Bi P, Hiller JE. Climate change and disability-
adjusted life years. J Environ Health. 2007;70(3):32-36.
    \iii\ Sheffield PE, Landrigan PJ. Global climate change and 
children's health: threats and strategies for prevention. Environ 
Health Perspect. 2011;119(3): 291-298.
    \iv\ Fritze JG, Blashki GA, Burke S, Wiseman J. Hope, despair and 
transformation: climate change and the promotion of mental health and 
wellbeing. Int J Mental Health Syst. 2008;2(1):13.
    \v\ Swaminathan M, Kesavan P. Agricultural research in an era of 
climate change. Agric Res. 2012;1(1):3-11.
    \vi\ Zhang Y, Bi P, Hiller JE. Climate change and disability-
adjusted life years. J Environ Health. 2007;70(3):32-36.
    \vii\ Sheffield PE, Landrigan PJ. Global climate change and 
children's health: threats and strategies for prevention. Environ 
Health Perspect. 2011;119(3): 291-298.
    \viii\ Fritze JG, Blashki GA, Burke S, Wiseman J. Hope, despair and 
transformation: climate change and the promotion of mental health and 
wellbeing. Int J Mental Health Syst. 2008;2(1):13.
    \ix\ Miranda DS, Choonara I. Hurricanes and child health: lessons 
from Cuba. Arch Dis Child. 2011;96(4):328-329.
    \x\ National Commission on Children and Disasters, ed. 2010 Report 
to the President and Congress. Rockville, MD: Agency for Healthcare 
Research and Quality; 2010; No. AHRQ Publication No. 10-M037. http://
archive.ahrq.gov/prep/nccdreport/nccdreport.pdf. Accessed June 22, 
2018.
    \xi\ Ivers LC, Ryan ET. Infectious diseases of severe weather-
related and flood-related natural disasters. Curr Opin Infect Dis. 
2006;19(5):408-414.
    \xii\ Katelaris CH, Beggs PJ. Climate change: allergens and 
allergic diseases. Intern Med J. 2018 Feb;48(2):129-134. doi: 10.1111/
imj.13699.
    \xiii\ Barbeau DN, Grimsley LF, White LE, El-Dahr JM, Lichtveld M. 
Mold exposure and health effects following hurricanes Katrina and Rita. 
Annu Rev Public Health. 2010;31:165-78 1 p following 178. doi: 10.1146/
annurev.publhealth.012809.103643.
    \xiv\ Goldmann E, Galea S. Mental health consequences of disasters. 
Annu Rev Public Health. 2014;35:169-183.
    \xv\ Thompson R, Hornigold R, Page L, Waite T. Associations between 
high ambient temperatures and heat waves with mental health outcomes: a 
systematic review. Public Health. 2018 Aug;161:171-191. doi: 10.1016/
j.puhe.2018.06.008. Epub 2018 Jul 12.
    \xvi\ Ahdoot S., Pacheco S.E., AAP Council on Environmental Health. 
Global Climate Change and Children's Health. Pediatrics. Nov 2015, 136 
(5) e1468-e1484. Available at: www.pediatrics.org/cgi/doi/10.1542/
peds.2015-3233.
    \xvii\ Brown, D. W., Anda, R. F., Tiemeier, H., Felitti, V. J., 
Edwards, V. J., Croft, J. B., & Giles, W. H. (2009). Adverse childhood 
experiences and the risk of premature mortality. American journal of 
preventive medicine, 37(5), 389-396.
    \xviii\ Avalos LA, Chen H, Li DK, Basu R. The impact of high 
apparent temperature on spontaneous preterm delivery: a case-crossover 
study. Environ Health. 2017 Feb 1;16(1):5. doi: 10.1186/s12940-017-
0209-5.
    \xix\ Ahdoot S., Pacheco S.E., AAP Council on Environmental Health. 
Global Climate Change and Children's Health. Pediatrics. Nov 2015, 136 
(5) e1468-e1484. Available at: www.pediatrics.org/cgi/doi/10.1542/
peds.2015-3233.
    \xx\ Ahdoot S., Pacheco S.E., AAP Council on Environmental Health. 
Global Climate Change and Children's Health. Pediatrics. Nov 2015, 136 
(5) e1468-e1484. Available at: www.pediatrics.org/cgi/doi/10.1542/
peds.2015-3233.
    \xxi\ Ahdoot S., Pacheco S.E., AAP Council on Environmental Health. 
Global Climate Change and Children's Health. Pediatrics. Nov 2015, 136 
(5) e1468-e1484. Available at: www.pediatrics.org/cgi/doi/10.1542/
peds.2015-3233.
    \xxii\ U.S. EPA. Regulatory Impact Analysis for the Clean Power 
Plan Final Rule. https://www3.epa.gov/ttnecas1/docs/ria/
utilities_ria_final-clean-power-plan-existing-units_2015-08.pdf. 
Updated October 23, 2015. Accessed November 5, 2019.
    \xxiii\ Strickland MJ, Darrow LA, Klein M, Flanders WD, Sarnat JA, 
Waller LA, Sarnat SE, Mulholland JA, Tolbert PE. Short-term 
associations between ambient air pollutants and pediatric asthma 
emergency department visits. Am J Respir Crit Care Med 2010;182:307-16.
    \xxiv\ Gleason JA, Bielory L, Fagliano JA. Associations between 
ozone, PM2.5, and four pollen types on emergency department pediatric 
asthma events during the warm season in New Jersey: a case-crossover 
study. Environ Res 2014;132:421-9.
    \xxv\ Silverman RA, Ito K. Age-related association of fine 
particles and ozone with severe acute asthma in New York City. J 
Allergy Clin Immunol 2010;125:367-373.e5.
    \xxvi\ Strickland MJ, Klein M, Flanders WD, Chang HH, Mulholland 
JA, Tolbert PE, Darrow LA. Modification of the effect of ambient air 
pollution on pediatric asthma emergency visits: susceptible 
subpopulations. Epidemiology 2014;25:843-50.
    \xxvii\ Moore SM, Eisen RJ, Monaghan A, Mead P. Meteorological 
influences on the seasonality of Lyme disease in the united states. Am 
J Trop Med Hyg. 2014;90(3):486-496.
    \xxviii\ Anyamba A, Small JL, Britch SC, et al. Recent weather 
extremes and impacts on agricultural production and vector-borne 
disease outbreak patterns. PLoS One. 2014;9(3):e92538.
    \xxix\ Ahdoot S., Pacheco S.E., AAP Council on Environmental 
Health. Global Climate Change and Children's Health. Pediatrics. Nov 
2015, 136 (5) e1468-e1484. Available at: www.pediatrics.org/cgi/doi/
10.1542/peds.2015-3233.
    \xxx\ Ahdoot S., Pacheco S.E., AAP Council on Environmental Health. 
Global Climate Change and Children's Health. Pediatrics. Nov 2015, 136 
(5) e1468-e1484. Available at: www.pediatrics.org/cgi/doi/10.1542/
peds.2015-3233.
    \xxxi\ Jacobs WB and Goho SA. Brief of Amicus Curiae Public Health 
Experts, Public Health Organizations, and Doctors in Support of 
Plaintiffs-Appellees Seeking Affirmance. Available at: http://
clinics.law.harvard.edu/environment/files/2019/03/Juliana-Public-
Health-Experts-Brief-with-Paper-Copy-Certificate.pdf.
    \xxxii\ U.S. EPA. Regulatory Impact Analysis for the Proposed 
Carbon Pollution Guidelines for Existing Power Plants and Emission 
Standards for Modified and Reconstructed Power Plants. June 2014. EPA-
542/R-14-002.
    \xxxiii\ Chang KM, Hess JJ, Balbus JM, Buonocore JJ, Cleveland DA, 
Grabow ML, Neff R, Saari RK, Tessum CW, Wilkinson P, Woodward A. 
Ancillary health effects of climate mitigation scenarios as drivers of 
policy uptake: a review of air quality, transportation and diet co-
benefits modeling studies. Environmental research letters. 2017 Oct 
27;12(11):113001.
    \xxxiv\ Achakulwisut P, Brauer M, Hystad P, Anenburg SC. Global, 
national, and urban burdens of paediatric asthma incidence attributable 
to ambient NO2 pollution: estimates from global datasets. Lancet 
Planetary Health. 2019;3(4). doi:10.1016/s2542-5196(19)30046-4.
    \xxxv\ Shindell DT, Lee Y, Faluvegi G. Climate and health impacts 
of U.S. emissions reductions consistent with 2 C. Nature Climate 
Change. 2016 May;6(5):503.
    \xxxvi\ Woodcock J, Edwards P, Tonne C, Armstrong BG, Ashiru O, 
Banister D, Beevers S, Chalabi Z, Chowdhury Z, Cohen A, Franco OH. 
Public health benefits of strategies to reduce greenhouse-gas 
emissions: urban land transport. The Lancet. 2009 Dec 5;374(9705):1930-
43.
    \xxxvii\ Jarrett J, Woodcock J, Griffiths UK, Chalabi Z, Edwards P, 
Roberts I, Haines A. Effect of increasing active travel in urban 
England and Wales on costs to the National Health Service. The Lancet. 
2012 Jun 9;379(9832):2198-205.
    \xxxviii\ Jarrett J, Woodcock J, Griffiths UK, Chalabi Z, Edwards 
P, Roberts I, Haines A. Effect of increasing active travel in urban 
England and Wales on costs to the National Health Service. The Lancet. 
2012 Jun 9;379(9832):2198-205.
    \xxxix\ Chang KM, Hess JJ, Balbus JM, Buonocore JJ, Cleveland DA, 
Grabow ML, Neff R, Saari RK, Tessum CW, Wilkinson P, Woodward A. 
Ancillary health effects of climate mitigation scenarios as drivers of 
policy uptake: a review of air quality, transportation and diet co-
benefits modeling studies. Environmental research letters. 2017 Oct 
27;12(11):113001.
    \xl\ Springmann M, Godfray HC, Rayner M, Scarborough P. Analysis 
and valuation of the health and climate change cobenefits of dietary 
change. Proceedings of the National Academy of Sciences. 2016 Apr 
12;113(15):4146-51.
    \xli\ Springmann M, Godfray HC, Rayner M, Scarborough P. Analysis 
and valuation of the health and climate change cobenefits of dietary 
change. Proceedings of the National Academy of Sciences. 2016 Apr 
12;113(15):4146-51.
    \xlii\ Payne CL, Scarborough P, Cobiac L. Do low-carbon-emission 
diets lead to higher nutritional quality and positive health outcomes? 
A systematic review of the literature. Public health nutrition. 2016 
Oct;19(14):2654-61.
    \xliii\ Wood L, Hooper P, Foster S, Bull F. Public green spaces and 
positive mental health--investigating the relationship between access, 
quantity and types of parks and mental wellbeing. Health & place. 2017 
Nov 1;48:63-71.
    \xliv\ Shanahan DF, Bush R, Gaston KJ, Lin BB, Dean J, Barber E, 
Fuller RA. Health benefits from nature experiences depend on dose. 
Scientific reports. 2016 Jun 23;6:28551.
    \xlv\ Engemann K, Pedersen CB, Arge L, Tsirogiannis C, Mortensen 
PB, Svenning JC. Residential green space in childhood is associated 
with lower risk of psychiatric disorders from adolescence into 
adulthood. Proceedings of the National Academy of Sciences. 2019 Mar 
12;116(11):5188-93.
    \xlvi\ Engemann K, Pedersen CB, Arge L, Tsirogiannis C, Mortensen 
PB, Svenning JC. Childhood exposure to green space--A novel risk-
decreasing mechanism for schizophrenia? Schizophrenia research. 2018 
Sep 1;199:142-8.
    \xlvii\ Bratman GN, Hamilton JP, Hahn KS, Daily GC, Gross JJ. 
Nature experience reduces rumination and subgenual prefrontal cortex 
activation. Proceedings of the national academy of sciences. 2015 Jul 
14;112(28):8567-72.
    \xlviii\ Kuhn S, Duzel S, Eibich P, Krekel C, Wustemann H, Kolbe J, 
Martensson J, Goebel J, Gallinat J, Wagner GG, Lindenberger U. In 
search of features that constitute an "enriched environment" in humans: 
Associations between geographical properties and brain structure. 
Scientific reports. 2017 Sep 20;7(1):11920.
    \xlix\ Dadvand P, Nieuwenhuijsen MJ, Esnaola M, Forns J, Basagana 
X, Alvarez-Pedrerol M, Rivas I, Lopez-Vicente M, Pascual MD, Su J, 
Jerrett M. Green spaces and cognitive development in primary school 
children. Proceedings of the National Academy of Sciences. 2015 Jun 
30;112(26):7937-42.
    \l\ Eckelman MJ, Sherman J. Environmental impacts of the U.S. 
health care system and effects on public health. PLoS One. 
2016;11(6):e0157014. doi:10.1371/journal.pone.0157014.
    \li\ American Thoracic Society, Committee of the Environmental and 
Occupational Health Assembly. Health effects of outdoor air pollution. 
Part 1. Am J Respir Crit Care Med.1996;153 :3-50.
    \lii\ American Thoracic Society, Committee of the Environmental and 
Occupational Health Assembly. Health effects of outdoor air pollution. 
Part 2. Am J Respir Crit Care Med.1996;153 :477-498.
    \liii\ Thurston GD, Ito K, Hayes CG, Bates DV, Lippmann M. 
Respiratory hospital admissions and summertime haze air pollution in 
Toronto, Ontario: consideration of the role of acid aerosols. Environ 
Res.1994;65 :271-290.
    \liv\ White MC, Etzel RA, Wilcox WD, Lloyd C. Exacerbations of 
childhood asthma and ozone pollution in Atlanta. Environ Res.1994;65 
:56-68.
    \lv\ Tolbert PE, Mulholland JA, MacIntosh DL, et al. Air quality 
and pediatric emergency room visits for asthma in Atlanta, Georgia, 
USA. Am J Epidemiol.2000;151 :798-810.
    \lvi\ Gilliland FD, Berhane K, Rappaport EB, et al. The effects of 
ambient air pollution on school absenteeism due to respiratory 
illnesses. Epidemiology.2001;12 :43-54.
    \lvii\ Woodruff TJ, Grillo J, Schoendorf KC. The relationship 
between selected causes of postneonatal infant mortality and 
particulate air pollution in the United States. Environ Health 
Perspect.1997;105 :608-612.
    \lviii\ Bobak M, Leon DA. The effect of air pollution on infant 
mortality appears specific for respiratory causes in the postneonatal 
period. Epidemiology.1999;10 :666-670.
    \lix\ Ritz B, Yu F. The effect of ambient carbon monoxide on low 
birth weight among children born in southern California between 1989 
and 1993. Environ Health Perspect.1999;107 :17-25.
    \lx\ Bobak M. Outdoor air pollution, low birth weight, and 
prematurity. Environ Health Perspect.2000;108 :173-176.
    \lxi\ Dejmek J, Solansky I, Benes I, Lenicek J, Sram RJ. The impact 
of polycyclic aromatic hydrocarbons and fine particles on pregnancy 
outcome. Environ Health Perspect.2000;108 :1159-1164.
    \lxii\ Wang X, Ding H, Ryan L, Xu X. Association between air 
pollution and low birth weight: a community-based study. Environ Health 
Perspect.1997;105 :514-520.
    \lxiii\ Bobak M. Outdoor air pollution, low birth weight, and 
prematurity. Environ Health Perspect.2000;108 :173-176.
    \lxiv\ Ritz B, Yu F, Chapa G, Fruin S. Effect of air pollution on 
preterm birth among children born in Southern California between 1989 
and 1993. Epidemiology.2000;11 :502-511.
    \lxv\ Ha EH, Hong YC, Lee BE, Woo BH, Schwartz J, Christiani DC. Is 
air pollution a risk factor for low birth weight in Seoul? 
Epidemiology.2001;12 :643-648.
    \lxvi\ Xu X, Ding H, Wang X. Acute effects of total suspended 
particles and sulfur dioxides on preterm delivery: a community-based 
cohort study. Arch Environ Health.1995;50 :407-415.
    \lxvii\ U.S. EPA. Regulatory Impact Analysis for the Clean Power 
Plan Final Rule. https://www3.epa.gov/ttnecas1/docs/ria/
utilities_ria_final-clean-power-plan-existing-units_2015-08.pdf. 
Updated October 23, 2015. Accessed November 5, 2019.

    Ms. Castor. Thank you, Dr. Bole.
    Mr. Rodriguez, you are recognized for 5 minutes.

                STATEMENT OF ARTURO S. RODRIGUEZ

    Mr. Rodriguez. Thank you very much, Chairwoman Castor. 
Sorry about that. Chairwoman Castor, Ranking Member Graves, 
members of the Select Committee, thank you for the opportunity 
to testify today. Today I am representing the United Farm 
Workers and the United Farm Workers Foundation. While many of 
us work in climate-controlled environments, farm workers across 
the Nation work under the scorching sun and during extreme 
weather events to cultivate and harvest the food that reaches 
our tables. The dangers farm workers face due to heat exposure 
will only increase due to climate change.
    In addition to heat, farm workers also are on the front 
lines of exposure to a range of harmful pesticides. Not only is 
the use of pesticides expected to increase due to climate 
change, but the way in which farm workers protect themselves 
from harmful pesticides, such as by wearing extra clothing or 
personal protective equipment, can increase the risk of heat-
related illness.
    Of the approximately 2.4 million farm workers across the 
country, roughly half of farm workers are undocumented and 
roughly 10 percent are workers here on H-2A visas for temporary 
agriculture employment. To keep their employers happy and be 
invited back, H-2A workers will work to the limits of their 
endurance. The issues I speak of are not hypothetical. The farm 
worker communities that we serve are intimately and tragically 
familiar with the dangers of pesticide and heat exposure, as 
well as other impacts from climate change, such as wildfires.
    Asuncion Valdivia was 53 years old. He died of heatstroke 
after working for 10 hours in 105-degree temperatures. Instead 
of calling an ambulance, Valdivia's employer allegedly told his 
son to drive him home.
    Maria Isavel Vasquez Jimenez was only 17 years old. She was 
working in a vineyard and collapsed after laboring more than 9 
hours without access to shade or water. Despite her fiance's 
pleas for help, no paramedics were summoned.
    Miguel Angel Guzman Chavez was a 24-year-old farm worker 
that entered the country under the H-2A temporary agricultural 
worker program. He was picking tomatoes in the State of Georgia 
and died from heat on June 21st, 2018, a few days after his 
arrival to the United States.
    A string of heat deaths drove us to take action. We worked 
with Congresswoman Judy Chu and helped convince then Governor 
Arnold Schwarzenegger to issue the first heat standards in the 
Nation in 2005 protecting farm workers and other outdoor 
workers from extreme temperatures.
    Later, in 2015, we worked with Governor Jerry Brown to 
strengthen the rules and ensure more effective, timely, and 
consistent enforcement of the heat standard. The standard 
requires that workers are provided with very basic yet 
lifesaving protections: cool water, shade at 80 degrees, high 
heat procedures at 95 degrees, and monitoring of workers, 
training to identify and prevent heat illness. While the road 
to implementation and enforcement of the California standard 
has not been easy, the standard has secured meaningful 
improvements for farm workers and resulted in a notable 
reduction in the number of farm worker deaths related to heat 
hazards.
    Behind me today is Pablo Martinez, who has worked in the 
fields of Monterey County since he was 13 years old. As a farm 
worker and a son of farm workers, Pablo witnessed several of 
his coworkers pass out due to heat illness. Before the 
existence of the standard, farm workers would carry the 
affected workers and try to find a tree or anywhere that could 
offer them refuge from the sun. Nowadays, and with access to 
water, shade, rest, training, and emergency procedures, he can 
attest to the difference that the heat standard makes in the 
lives of the people that feed us.
    California is the leading agricultural State in the Nation, 
home to the largest number of farm workers in the U.S., a 
testament to the feasibility of a national heat illness 
standard to protect outdoor workers and a prime example that 
implementing commonsense heat illness protections is good for 
workers, employers, and for our food system.
    Since the standard went into effect, California's farming 
industry has continued to prosper. In fact, from 2008 to 2018, 
the State experienced a nearly 34 percent increase in cash 
receipts for all agricultural commodities. The only way we can 
ensure that Maria Isavel, Asuncion, Miguel Angel, and others 
didn't die in vain is by protecting the workers most vulnerable 
to the impacts of climate change with a national heat illness 
standard.
    We stand ready to work with members of this committee and 
beyond to stop unnecessary illnesses and deaths and advance 
national safeguards to protect the most vulnerable workers in 
communities from the impacts of climate change. Thank you very 
much.
    [The statement of Mr. Rodriguez follows:]

 Testimony of Arturo S. Rodriguez on behalf of the UFW Foundation and 
                   the United Farm Workers of America

          Before the Select Committee on the Climate Crisis, 
                 United States House of Representatives

                ``Creating a Climate Resilient America: 
          Overcoming the Health Risks of the Climate Crisis''

                            February 5, 2020

    Chairwoman Castor, Ranking Member Graves, and Members of the Select 
Committee:
    My name is Arturo Rodriguez and I had the honor of serving as the 
elected President of UFW for over 25 years, until 2018. Thank you for 
the opportunity to represent the United Farm Workers (``UFW'') union 
and the UFW Foundation.
    Founded in 1962 by Cesar Chavez, Dolores Huerta, and other early 
organizers, the UFW is the nation's first enduring and largest farm 
worker union. The UFW is a labor organization that represents migrant 
and seasonal farm workers in various agricultural occupations. Through 
collective bargaining, worker education, state and federal legislation, 
and public campaigns, the UFW seeks to improve the lives, wages, and 
working conditions of agricultural workers and their families. The UFW 
Foundation--a non-profit sister organization of the United Farm Workers 
Union--provides critical services and resources to farm worker and 
immigrant communities. As the largest Department of Justice accredited 
immigration legal service provider in rural California, UFW Foundation 
regional offices annually serve over 100,000 immigrants.
    The UFW and the UFW Foundation believe that the workers who harvest 
the food that this nation enjoys should be entitled to protection from 
the impacts of climate change and efforts to undercut such protections. 
Both organizations actively champion legislative and regulatory reforms 
that advance the health, safety and well-being of farmworker and 
immigrant families, rural communities, and beyond. For decades, we have 
been fighting to correct the historical inequities that penalized farm 
workers with weaker protections than workers in other industrial 
sectors. At the federal level and in the state of California, we have 
fought for laws and regulations that provide life-saving protections 
for farm workers, agricultural communities and consumers across the 
country. Among them:
          <bullet> The Farm Workforce Modernization Act (H.R.5038), a 
        groundbreaking and bipartisan bill that will legalize our 
        nation's farmworkers, reform the H-2A temporary agricultural 
        worker program and require employment verification (``E-
        verify'') in agriculture. On December 11, 2019, this bill 
        passed the House of Representatives with overwhelming and 
        bipartisan support (by a vote of 260-165) and awaits action by 
        the Senate.
          <bullet> The Agricultural Worker Protection Standard 
        (``WPS'') which was strengthened on November 2, 2015 and 
        protects approximately 2.4 million agricultural workers, their 
        families, and communities adjacent to pesticide applications, 
        from pesticide exposure and poisoning.
          <bullet> The Certification of Pesticide Applicators (``CPA'') 
        rule which protects nearly 1 million pesticide applicators and 
        prevents injuries, illnesses, and deaths from the misuse of 
        deadly pesticides in agricultural, residential and commercial 
        settings.
          <bullet> A California law--the first in the nation--that was 
        signed by Governor Brown on September 12, 2016 and guarantees 
        farm workers overtime pay after eight hours of work.
          <bullet> And critically relevant to today's hearing, the 
        California Heat Illness Prevention standards--implemented in 
        2005 and strengthened in 2015--designed to prevent deaths and 
        illnesses from extreme heat for workers in agriculture and 
        other outdoor industries.

              OVERVIEW OF THE U.S. FARM WORKER POPULATION

    As you examine the role of Congress and the federal government in 
protecting outdoor workers from the risks of climate change and heat 
exposure, it's important that you understand the many challenges faced 
by farm workers--whose skilled work is integral to our food system--and 
the impediments they continue to face in securing the legal right to a 
safe workplace.
          <bullet> Overall, there are approximately 2.4 million farm 
        workers across the country. This number includes hundreds of 
        thousands of minors who work in agriculture.
          <bullet> Out of the 2.4 million farmworkers, in FY 2019, the 
        U.S. Department of Labor certified over 250,000 positions 
        requested by agricultural employers for workers to enter the 
        country with H-2A visas.\i\ Under the H-2A temporary 
        agricultural worker program, workers depend on the employer 
        that petitioned them for their job, ability to stay in the 
        country, housing and transportation. To keep their employers 
        happy and be invited back, H-2A workers will work to the limits 
        of their endurance.
          <bullet> Farmworkers are predominantly of Latino and/or 
        indigenous ancestry with nearly 70% hailing from Mexico. About 
        50% of the workforce is documented, and nearly 80% are most 
        comfortable speaking in Spanish.
          <bullet> For farmworkers in California, extreme weather 
        events and wildfires are not hypothetical scenarios found in 
        scholarly articles or climate change reports. Indeed, research 
        indicates that rising temperatures and changes in precipitation 
        will increase the risks of wildfires and poor air quality.\ii\ 
        Over the past 3 years, farmworkers across California have 
        first-hand experience performing back-breaking work while fires 
        raged and smoke made it difficult to breathe. Unless they were 
        represented by a union, many of them felt pressured to keep 
        working, despite harmful conditions.
          <bullet> In addition to heat, farm workers are also on the 
        frontlines of exposure to a range of pesticides that threaten 
        their health and the development of their children. Due to 
        climate change, high temperatures, changing patterns of 
        precipitation and drought are expected to result in a decline 
        in food production, more intense wildfires, a decrease of water 
        supplies, and an expansion of pest activity that will increase 
        the exposure of farmworkers to harmful pesticides.\iii\ In 
        order to protect themselves from the sun and reduce exposure to 
        pesticides, farmworkers wear additional clothing or personal 
        protective equipment (``PPE'') which can increase the risk of 
        heat-related illness.
          <bullet> Due to a shameful and race-based history, federal 
        law excludes farmworkers from the same basic labor protections 
        enjoyed by other workers, including the National Labor 
        Relations Act (NRLA), the Fair Labor Standards Act (FLSA), and 
        federal child labor laws and safety requirements.
          <bullet> As a result of language barriers, immigration 
        status, lack of access to health care, and economic 
        vulnerability, most farm workers won't speak out in the 
        workplace, be adequately informed about occupational and 
        environmental hazards, or have access to timely medical 
        attention when illness or injury strikes.
    Today, I have the privilege of sitting before you in a climate-
controlled hearing room. In general, farmworkers have no refuge from 
extreme temperatures as they toil under the scorching sun to cultivate 
and harvest the food that reaches our tables. Farmworkers feed our 
families and communities, without regard to region, race, ethnicity, 
gender, age, ability, or whether we are Democrats or Republicans.
    Given the nature of agricultural work, their close relationship to 
the land and regular exposure to the elements, farmworkers are on the 
frontlines of the climate crisis that needs to be solved. To give you a 
better sense of the reality that farmworkers and other outdoor workers 
face, it would be more fitting for a Congressional hearing to be held 
outdoors, in full exposure to the elements when the summer temperatures 
are in full swing.
    To feed the nation, farmworkers perform skilled and strenuous work. 
In the course of that work, they face a range of hazards including but 
not limited to, heat illness, occupational and residential exposure to 
a range of harmful pesticides, and cumulative exposure to contaminants 
in our air and water.
    At the national level, farmworkers have the highest rates of 
chemical exposures and heat-related deaths \iv\ among U.S. workers:
          <bullet> When it comes to the health and safety risks of 
        workplace heat exposure, outside of California, farmworkers 
        enjoy little to no regulatory protection. Only two states--
        California \v\ and Washington \vi\--have implemented standards 
        to protect outdoor workers from heat stress. As such, 
        farmworkers suffer heat-related illnesses that can lead to heat 
        stroke and death in the absence of training, life-saving 
        precautions and timely intervention.
          <bullet> In connection with pesticide exposure, farmworkers 
        are denied the health and safety protections provided by the 
        Occupational Safety and Health Administration (OSHA), even 
        though the impetus behind the establishment of OSHA in 1970 was 
        the growing concern in Congress about ``the occupational hazard 
        presented by the misuse of pesticides.'' \vii\
    If any of us had to spend several hours toiling under high 
temperatures or exposed to pesticides, the basic protections that we'd 
need would include water, shade, breaks, training and personal 
protective equipment to prevent illness and tragedies. Farmworkers 
deserve nothing less. Given the conditions that they must labor under, 
protecting farmworkers from the impacts of climate change can be 
achieved through commonsense safeguards that take into account the 
realities they face in agricultural occupations, across the nation.
    The farmworker communities that we serve are tragically familiar 
with the dangers of rising temperatures and dangerous heat. We are 
humbled to be here on behalf of farm workers who died from the heat 
while harvesting America's food. They perished as they were denied the 
drinking water, shade, breaks and other simple measures that could have 
prevented their deaths:
          <bullet> Miguel Angel Guzman Chavez was a 24-year-old 
        farmworker that came to the U.S. under the H-2A guest worker 
        program. He died from heat on June 21, 2018, five days after he 
        arrived in the U.S. from Mexico. He was picking tomatoes for 
        Beiza Farm Labor Contractor and Motley Farms in the state of 
        Georgia. According to co-workers, Miguel Angel and his crew 
        were working 16 hour days prior to the day he perished. He 
        wasn't used to the high heat and humidity, and was stricken at 
        the height of the daily heat at about 4 p.m. while picking 
        tomatoes. That day, the high temperature was 95, with a heat 
        index (how hot it really feels when relative humidity is 
        factored in along with the actual air temperature) of 103 or 
        104 degrees. Miguel had told his crew boss he was feeling ill. 
        The foreman told him to sit it out in the shade. Meanwhile, 
        Miguel yelled and moaned of pain and demanded medical 
        attention. After one hour of suffering, the foreman finally 
        took Miguel to the labor contractor's office, where human 
        resources staff was present. However, it was another employee, 
        a mechanic, who drove him to the hospital. He died in route. 
        Like many heat stroke deaths of farm workers, Miguel's death 
        was preventable.
          <bullet> Honesto Ibarra was a 28-year-old worker that entered 
        the U.S. on an H-2A visa. On August 6th, 2017, he was working 
        on a blueberry farm in Sumas, Washington. His coworkers say 
        that it was a hot day when Honesto started experiencing 
        headaches and told his supervisor on two different occasions 
        that he was not feeling well. Honesto was ignored by his 
        supervisor both times and was told to go back to work. Honesto 
        eventually collapsed and was transported to a medical center 
        where he died.
          <bullet> Ricardo Sotelo passed away due to heat illness. This 
        past June 30th marked 4 years since his death. While Ricardo 
        was harvesting blueberries at Olsen Bros, Wyckoff Farms in 
        Washington State, the temperature was 107 degrees. Because of 
        the high temperatures, many of his co-workers were feeling ill 
        and began to vomit. Ricardo had been feeling sick all day and 
        had asked to take a break, but unfortunately he was denied rest 
        by his supervisor and had to continue picking blueberries. 
        Later that day, when Ricardo arrived home from work, he passed 
        out. His family took him to the hospital, where he died on the 
        same day. Medical records indicated that his death was due to 
        heat stroke.
          <bullet> Jaime Nuno-Sanchez was a 48 year-old farm worker 
        with 30 years of experience harvesting fruits and vegetables 
        throughout the Coachella Valley in Southern California. On the 
        morning of September 21st, 2015, he started his shift picking 
        lemons for Wonderful Citrus, one of the largest citrus 
        distributors in the United States. Around 10:30 a.m. on Sept. 
        21, a work crew that included Nuno-Sanchez and his wife began 
        picking from a row of trees at the back of the grove, not far 
        from where a supervisor had set up shade and water to comply 
        with California's heat illness prevention standards. 
        Temperatures hovered around 90 degrees, but the humidity made 
        it feel like 105. Forty-five minutes into the shift, Nuno-
        Sanchez, 48, sat down in a shaded area, saying he didn't feel 
        well. Minutes later he collapsed. One picker, who could speak 
        English, called 911. A supervisor jumped into a pickup and sped 
        to Highway 86 to wait for a fire truck and paramedics. When 
        they arrived, he led them to the last lemon tree in the grove. 
        Paramedics tried to revive Nuno-Sanchez, but it was too late. 
        The father of three died in the field at 12:35 PM.
          <bullet> Maria de Jesus Alvarez Bautista was 63 years old and 
        worked at Anthony Vineyards, employed through farm labor 
        contractor Manuel Torres. On July 15, 2008, on a 110-degree 
        day, she was picking grapes in the vineyard. The foreman 
        pressured the crew to work harder, telling them they were not 
        working fast enough. According to her family, Maria felt 
        pressured to keep pace with her coworkers, although she needed 
        a break. As a result, she worked for the rest of the day. The 
        crew of 150 people were not provided shade, nor were they 
        trained in heat stroke prevention and precautions as mandated 
        by state law. Without the proper training, her coworkers were 
        not able to identify the signs of heat illness. Later that 
        evening when she was home, she had a headache, a high fever and 
        started vomiting. Her son found his mother wrapped up in a 
        blanket on the sofa, saying she was cold, despite it being a 
        hot day. With her condition deteriorating rapidly over the 
        course of two weeks, she was taken to the hospital on July 29. 
        Doctors determined that she was severely dehydrated and had 
        suffered a heat stroke. After being treated at two different 
        hospitals, Maria de Jesus Alvarez Bautista died on August 2, 
        2008, making her one of six farm workers whose death was due to 
        fatal exposure to heat in 2008.
          <bullet> Maria Isavel Vasquez Jimenez was a 17-year-old 
        undocumented farmworker who worked at a vineyard owned by West 
        Coast Grape Farming located east of Stockton, California. She 
        died of heat exhaustion on May 16, 2008. Two days prior to her 
        death, she was tying grape vines when the temperature rose 
        above 95 degrees. She was unable to reach a water cooler that 
        was about 10 minutes away and the foreman didn't give workers a 
        long enough break to get a drink of water. She collapsed from 
        heat exhaustion after working more than nine hours under 
        oppressive heat conditions. She didn't have access to shade or 
        water and she was never trained on heat illness protection. Two 
        days after collapsing from heat exhaustion she passed away. As 
        Bautista, her fiance, cradled her, the supervisor just stared 
        at her and did nothing. The farm labor contractor failed to 
        bring Maria Isavel to a hospital right way. Instead, the 
        supervisor told Bautista to lay her down in a bed of a hot van 
        and place a wet cloth on her forehead. When she was finally 
        taken to a hospital near Lodi, approximately two hours after 
        collapsing, Maria Isavel was in a coma and her body temperature 
        was about 108 degrees. Then the doctors discovered she was two 
        months pregnant. Bautista said that Maria and him had not been 
        given safety training and that the supervisors had told him to 
        lie about the event.
    Maria Isavel Vasquez Jimenez, Maria de Jesus Alvarez Bautista, 
Jaime Nuno-Sanchez, Ricardo Sotelo, Honesto Ibarra and Miguel Angel 
Guzman Chavez, were not agricultural implements; they were important 
human beings. Their lives were worth a lot--and they deserve better 
treatment than they received.

  PROTECTING WORKERS FROM HEAT IS FEASIBLE AND CALIFORNIA SERVES AS A 
                                 MODEL

    After a string of heat deaths, in 2005 the UFW worked with then 
Assemblywoman Chu and convinced Governor Arnold Schwarzenegger to issue 
the first comprehensive regulations in the nation to protect California 
farm and other outdoor workers from dying or becoming ill when 
temperatures soar. After Representative Chu held a hearing outdoors to 
highlight the impacts of extreme heat on workers, Gov. Schwarzenegger 
announced an emergency heat illness prevention standard. California 
became the first state in the nation to issue life-saving and 
comprehensive Heat Illness Prevention standards for outdoor workers.
    Since 2005, California has required:
          <bullet> Training for all employees and supervisors about 
        heat illness prevention.
          <bullet> Potable water to employees that is free of charge 
        and located close to the areas where employees are working
                  <ctr-circle> Water cannot be more than 400 feet away
                  <ctr-circle> Each employee should have access to 1 
                quart per hour, or four 8 ounce glasses of water per 
                hour
          <bullet> Access to shade and encourage employees to take a 
        cool-down rest in the shade for at least 5 minutes. They should 
        not wait until they feel sick to cool down.
          <bullet> Planning that includes written procedures for 
        complying with the Cal/OSHA Heat Illness Prevention Standard.
    The laws on the book are only meaningful if they are enforced and 
become a reality for the workers that need it the most. In the summer 
of 2008, five more farm workers died from heat illness in California. 
Their deaths inspired our organizing of the ``March for Fallen Farm 
Workers'' from Lodi to the state Capitol in Sacramento to raise 
awareness about agricultural establishments and farm labor contractors 
who were denying farm workers the life-saving protections inherent in 
the state's Heat Illness Prevention Regulation.
    In light of these tragedies, the UFW helped aggrieved farm workers 
challenge the state of California in 2009 and 2012 over inadequate 
enforcement of heat regulations. In 2015, a settlement of these 
complaints led the state of California to increase their enforcement of 
the heat standard and included a memorandum of understanding under 
which farm worker advocacy groups, including the UFW and the UFW 
Foundation, can file reports of violations with Cal-OSHA, which is 
mandated to immediately investigate them.
    Furthermore, on Friday, May 1, 2015, the state issued strengthened 
heat regulations for all employees that work outdoors throughout 
California. The strengthened rules require that:
          <bullet> Water provided to employees must be ``fresh, pure, 
        suitably cool'' and located as close as practical to where 
        employees are working.
          <bullet> Shade must be present at 80 degrees, instead of the 
        current 85, and accommodate all employees on recovery or rest 
        periods, and those onsite taking meal periods.
          <bullet> High-heat procedures (which will remain triggered at 
        95 degrees) shall ensure ``effective'' observation and 
        monitoring of employees.
                  <ctr-circle> During high heat, employees must be 
                provided with a minimum 10-minute cool-down period 
                every two hours.
    Since the CA standard went into effect, California's farming 
industry has continued to prosper. In fact, according to the most 
recent farm income and wealth statistics by the CA Department of Food 
and Agriculture, from 2008-2018, the state experienced a nearly 34 
percent increase in cash receipts for all agricultural commodities, 
compared to 2008.\viii\
    California is the leading agricultural state in the country, 
producing over 400 commodities, two-thirds of the nation's fruit and 
nuts, and more than one-third of the nation's vegetables. It is also 
home to the largest number of farmworkers in the U.S.\ix\
    California's size (the third largest state by land area and most 
populated state in the country),\x\ diverse temperature zones, and the 
various outdoor industries that are subject to the California Heat 
Illness Prevention Standard (agriculture, construction, landscaping, 
oil and gas extraction, and transportation or delivery of agricultural 
products, construction materials or other heavy materials) \xi\ can 
serve as a model for the nation, and a testament to the feasibility of 
a national heat illness standard to protect workers.
    It's important to note that in testimony before Congress, among 
many things, the California Farm Bureau Federation shared that the 
California Heat Illness Prevention Standard is simple; that any heat 
standard should require provision of water, shade, and training for 
everyone, and that ``the greatest need is for workers, supervisors and 
employers to understand the key steps to take to avoid incidents of 
heat illness and deal effectively and promptly with any incidents that 
occur.'' \xii\ All these basic efforts intend to save more lives and 
prevent more illnesses among outdoor workers.

     PERSONAL PROTECTIVE EQUIPMENT (PPE) IS INADEQUATE TO PROTECT 
FARMWORKERS FROM UNSAFE LEVELS OF PESTICIDES AND EPA IS NOT CONSIDERING 
    HOW CLIMATE CHANGE AND PPE USE AFFECT THE RISK OF HEAT ILLNESS.

    A bedrock principle of occupational hygiene is the ``hierarchy of 
controls,'' which is used by the Occupational Safety and Health 
Administration (OSHA) and others to identify options for controlling 
exposures to occupational hazards. The hierarchy prioritizes 
elimination of the hazardous agent or substitution of a less hazardous 
agent. These are preferable to the implementation of engineering 
controls, which in turn are preferable to requiring personal protective 
equipment. For workers who are protected by OSHA, personal protective 
equipment is always the mitigation measure of last resort. When it 
comes to protecting workers from pesticides, EPA is in charge and the 
agency starts by considering personal protective equipment, then 
considers engineering controls, and never considers substitution with 
less toxic options or practices.
    However, when EPA reviews a pesticide to determine whether it meets 
the statutory safety standards, it conducts a series of risk 
assessments addressing food, drinking water, drift and volatilization 
exposure to children, bystanders, and workers. As its standard approach 
in assessing worker risks, EPA identifies risk levels of concern to 
workers and determines whether workers will be exposed to levels of 
pesticides that exceed those risk levels. For pesticide handlers, if it 
finds risks of concern, EPA first tries to reduce the risks through the 
use of protective clothing and gear. If the risks of concern are not 
eliminated, EPA then considers requiring engineering controls, like 
closed mixing systems. If none of these strategies eliminates the risks 
of concern, EPA will consider reducing application rates or eliminating 
the application method. For risks of concern to field workers, EPA uses 
restricted re-entry intervals to keep field workers out of the fields 
until exposures will be reduced. Only if re-entry intervals cannot 
eliminate the risks of concern will EPA consider stopping the activity 
or the use of the pesticide. This is the inadequate and underprotective 
methodology that EPA has used to assess worker risks from some of the 
most harmful pesticides.
    Furthermore, while the Environmental Protection Agency (``EPA'') 
has acknowledged that use of PPE when working in hot temperatures 
increases the risk of heat-related illness, unfortunately, EPA does not 
evaluate this risk when conducting occupational risk assessments for 
pesticides that assume varying levels of personal protective equipment.
    Feeding America and much of the world is honorable and important 
work. Farm workers shouldn't risk death or illness from climate change 
impacts and pesticide exposure when reasonable measures can prevent 
such tragedies and protect them from these hazards.
    Fifteen years ago we got a Republican governor to take action on 
heat stress. Five years ago we worked with a Democratic governor to 
strengthen the heat standards. Last year, we worked together to secure 
the enactment of S. 483, the Pesticide Registration Improvement Act of 
2019 (``PRIA 4'') and passage of the Farm Workforce Modernization Act 
(H.R. 5038) in the House:
          <bullet> House and Senate leadership, congressional 
        appropriators and authorizing committees (House and Senate 
        Agriculture, and House Energy and Commerce) unanimously 
        supported S. 483. PRIA 4 provides the EPA with more resources 
        to evaluate pesticide registrations and ensures the protection 
        of farmworkers, pesticide applicators and consumers who are 
        exposed to pesticides in agricultural, residential, and 
        commercial settings.
          <bullet> H.R. 5038 is a bipartisan bill that would not only 
        legalize eligible farmworkers but also requires that 
        agricultural employers of H-2A workers maintain a heat illness 
        prevention plan that includes: procedures for the prevention of 
        heat illness, appropriate training on heat illness prevention, 
        access to water and shade, the provision of breaks, and 
        protocols for emergency response. This was part of an effort to 
        bring the life-saving heat illness protections that we helped 
        establish in California to farmworkers across the nation.

          SOLUTIONS TO THE CLIMATE CRISIS REQUIRE BOLD ACTION

    Farm working and immigrant families are not only vital to our 
economy and food security; they are also vital to our communities. As 
this Committee and Congress discuss the bold action that will be 
necessary to tackle the climate crisis, I urge you not to lose sight of 
the relief and safeguards that farmworkers and environmental justice 
communities deserve NOW, to live and work with dignity and free of 
occupational and environmental hazards that threaten their health, 
safety, and the well-being of their families.
    To this end, we urge members of this committee to ensure that any 
policies, recommendations and strategies to address the climate crisis 
count with the meaningful engagement of the workers and communities who 
are on the frontlines of the climate crisis. Doing so would be 
consistent with the principles of Environmental Justice, which among 
many things: demand the participation of the most impacted communities 
at every level of decision-making; and affirms the right of all workers 
to a safe and healthy work environment.\xiii\ On this front, I want to 
commend the work of Congressman McEachin and Natural Resources 
Committee Chairman, Raul Grijalva on their comprehensive environmental 
justice initiative and the Environmental Justice for All Act. 
Environmental justice stakeholders have described the initiative as the 
most participatory effort of any Congress.

 FOR SOLUTIONS THAT ARE CENTERED ON THE WORKERS MOST VULNERABLE TO THE 
              CLIMATE CRISIS, AT A MINIMUM, CONGRESS MUST:

          <bullet> CODIFY the right to water, shade, rest, training and 
        emergency procedures for outdoor workers. These are basic yet 
        life-saving safeguards that would protect outdoor workers from 
        heat related illnesses and deaths. This is what the Asuncion 
        Valdivia Heat Illness and Fatality Prevention Act (H.R. 3668) 
        intends to do by directing the Occupational Safety and Health 
        Administration (OSHA) to issue a standard to protect indoor and 
        outdoor workers from heat-related injuries and illnesses. If 
        enacted, the bill can ensure that workers like Asuncion, Maria 
        Isavel, Miguel Angel and Honesto won't die unnecessarily.
          <bullet> ELIMINATE the racist exclusion of farmworkers from 
        our federal labor laws. U.S. farmworkers who seek improvements 
        in wages or working conditions can be fired by their employers 
        if they choose to join, organize or support a labor union. That 
        is not the case for workers in other industry sectors that 
        count with federal protections provided by the National Labor 
        Relations Act of 1935 (NLRA), which among many things, 
        prohibits employers from firing workers for the aforementioned 
        activities. The disparity in protections is due to a legacy of 
        racism that specifically excludes farmworkers (and domestic 
        workers) from the NLRA. And the exclusions don't end there. In 
        fact, farmworkers are also excluded from the right to overtime 
        pay in the Federal Labor Standards Act of 1938 (FLSA). The 
        Fairness for Farm Workers Act (H.R. 1080) would end the 
        discrimination that denies farmworkers the right to overtime 
        pay.
          <bullet> DIRECT THE EPA to assess the risks of heat-related 
        illness associated with any and all personal protective 
        equipment (PPE) that the Agency assumes that workers will wear 
        when conducting occupational risk assessments for pesticides. 
        While the Agency has acknowledged that use of PPE when working 
        in hot temperatures increases the risk of heat-related illness, 
        the EPA does not evaluate this risk when conducting 
        occupational risk assessments for pesticides that assume 
        varying levels of PPE.
          <bullet> DIRECT THE EPA to follow the hierarchy of controls 
        when selecting options to reduce occupational risk from 
        pesticides. A bedrock principle of occupational hygiene is the 
        ``hierarchy of controls,'' which is used by the Occupational 
        Safety and Health Administration (OSHA) and others to identify 
        options for controlling exposures to occupational hazards. The 
        hierarchy prioritizes elimination of the hazardous agent or 
        substitution of a less hazardous agent. These are preferable to 
        the implementation of engineering controls, which in turn are 
        preferable to requiring personal protective equipment. For 
        workers who are protected by OSHA, personal protective 
        equipment is always the mitigation measure of last resort. When 
        it comes to protecting workers from pesticides, EPA is in 
        charge and the agency starts by considering personal protective 
        equipment, then considers engineering controls, and never 
        considers substitution with less toxic options or practices.
          <bullet> DIRECT ALL FEDERAL AGENCIES to comply with Executive 
        Order 12898 relating to Federal Actions to Address 
        Environmental Justice In Minority Populations and Low-Income 
        Populations, and report to Congress on its implementation. EO 
        12898 directs Federal agencies to address disproportionately 
        high and adverse human health or environmental effects of its 
        programs. Failure to implement EO 12898 is of great concern as 
        it will disproportionately and negatively impact members of the 
        UFW and UFW Foundation who are farm worker families, low-income 
        immigrants, immigrants with disabilities and persons of color.
          <bullet> INVEST in the capacity of rural and agricultural 
        communities to:
                  <ctr-circle> Resist and respond to climate change 
                impacts. Agricultural communities are particularly 
                vulnerable to climate change and pesticide exposure. 
                Compared to urban areas, rural areas have higher 
                concentrations of people that live in poverty and are 
                more likely to have limited access to medical services 
                and housing with air-conditioning.\xiv\ This affects 
                the ability of farmworker families to find refuge from 
                the heat in their own homes and get treatment for heat-
                related illnesses or injuries. Failure to prepare the 
                agricultural sector for the impacts of climate change 
                will compromise our food security, and the health, 
                safety and livelihoods of farmworkers.
                  <ctr-circle> Decrease the agricultural industry's 
                reliance on harmful pesticides. In the United States, 
                over 1.1 billion pounds of pesticides are used every 
                year. World pesticide usage is at nearly 6 billion 
                pounds, according to EPA estimates.\xv\
    We stand ready to work with Republicans and Democrats in this 
committee, and beyond, to stop unnecessary illnesses and deaths, and 
advance national standards that protect the most vulnerable workers and 
communities from climate change.

    \i\ See U.S. Department of Labor, Employment and Training 
Administration, Office of Foreign Labor Certification, ``H-2A Temporary 
Agricultural Labor Certification Program--Selected Statistics, FY 2019, 
available at https://www.foreignlaborcert.doleta.gov/pdf/
PerformanceData/2019/H-2A_Selected_Statistics_FY2019_Q4.pdf.
    \ii\ See U.S. Global Change Research Program, Fourth National 
Climate Assessment (2018), available at https://
nca2018.globalchange.gov/downloads/NCA4_2018_FullReport.pdf.
    \iii\ ibid.
    \iv\ See Larry L. Jackson & Howard R. Rosenberg, Preventing Heat-
Related Illness Among Agricultural Workers, 15 J. Agromedicine 200 
(2010) (``The crop worker fatality rate averaged 4 heat-related deaths 
per one million workers per year--20 times higher than the 0.2 rate for 
US civilian workers overall.'').
    \v\ See 8 CCR Sec.  3395, 8 CA ADC Sec.  3395, Heat Illness 
Prevention in Outdoor Places of Employment, available at https://
www.dir.ca.gov/title8/3395.html.
    \vi\ See WAC Sec.  296-62-095, Outdoor Heat Exposure, available at 
https://app.leg.wa.gov/WAC/default.aspx?cite=296-62&full=true#296-62-
095.
    \vii\ See Organized Migrants In Community Action, Inc. v. U.S. 
Department of Labor (1975) at https://law.resource.org/pub/us/case/
reporter/F2/520/520.F2d.1161.74-2062.html.
    \viii\ USDA/ERS Farm Income and Wealth Statistics, Cash receipts by 
commodity 2008-2019F, available at https://data.ers.usda.gov/
reports.aspx?ID=17845#P5f4072bb859f4ffc99c413a4eee73e 71_4_17iT0R0x5.
    \ix\ USDA, National Agricultural Statistics Service, 2017 Census of 
Agriculture, State Data, Table 7. Hired Farm Labor--Workers and 
Payroll: 2017, available at https://www.nass.usda.gov/Publications / 
AgCensus / 2017 / Full _ Report / 
Volume _ 1, _ Chapter _ 2 _ US _ State _ Level / st99 _ 2_0007_ 
0007.pdf.
    \x\ See U.S. Census Bureau, Quick Facts: California; United States, 
available at https://www.census.gov/quickfacts/fact/table/CA,US/
PST045218#.
    \xi\ 8 CCR Sec.  3395, 8 CA ADC Sec.  3395, Heat Illness Prevention 
in Outdoor Places of Employment, available at https://www.dir.ca.gov/
title8/3395.html.
    \xii\ See testimony by Bryan Little before the House Education and 
Labor Committee at https://edlabor.house.gov/imo/media/doc/
LittleTestimony0711191.pdf.
    \xiii\ Delegates to the First National People of Color 
Environmental Leadership Summit held on October 24-27, 1991, in 
Washington DC, drafted and adopted 17 principles of Environmental 
Justice. The Principles have served as a defining document for the 
growing grassroots movement for environmental justice, available at 
https://www.ejnet.org/ej/principles.pdf.
    \xiv\ See U.S. Global Change Research Program, Fourth National 
Climate Assessment (2018), available at https://
nca2018.globalchange.gov/downloads/NCA4_2018_FullReport.pdf.
    \xv\ See U.S. EPA--Pesticides Industry Sales and Usage 2008-2012, 
available at https://www. epa.gov/sites/production/files/2017-01/
documents/pesticides-industry-sales-usage-2016_0.pdf.

    Ms. Castor. Thank you very much.
    And all of your testimony was very helpful and elucidating.
    Ms. Brownley, I understand you have to get to another 
hearing. So I am going to recognize you first for questions for 
5 minutes.
    Ms. Brownley. Thank you. Thank you, Madam Chair.
    And thank you all of our witnesses for being here with your 
powerful testimony.
    Mr. Rodriguez, I wanted to start with you. I know you know 
my district, Ventura County--actually, Ventura County has 
experienced the greatest temperature increase of any county in 
the continental United States, and the basis of Ventura's 
economy is agriculture and the work that your farm workers do 
in our county. And you mentioned the issues around pesticide 
and heat exposure, and I would add one more thing to that, and 
that is farm workers' children. As a former school board 
member, I know that asthma's the number one cause for children 
to miss school and when we talk about environmental justice, it 
is the children of farm workers, I think, that are most 
affected by that and the stress it brings, the mental health 
stress that that brings, but also the care for their children, 
and they are required to be home with their children and 
probably can't be home with their children.
    So I just--I guess the first question I really have is, is 
UFW collecting any data on health impacts of farm workers? Do 
you have hard data on that? Is it something that you are 
collecting?
    Mr. Rodriguez. You know, unfortunately, we don't have any 
hard data, but we work very closely with the Robert F. Kennedy 
medical plan, which is a medical insurance plan that we 
founded, that Cesar Chavez founded back in the late 1970s when 
we first began to get our contracts, and through that, we have 
noticed in terms of the types of illnesses that farm workers 
experience. Unfortunately, we haven't been able to detect it 
all the way down to the children, but we are working now with 
other universities in Fresno County and other researchers to 
really measure what is the impact on farm workers, on their 
children as a result of not only climate change, but you 
mentioned the very important thing, the pesticides. Because in 
addition to the fact that farm workers are exposed to the heat 
and everything else, they wear a lot of clothing to protect 
themselves, and oftentimes that comes in contact with the 
pesticides that are used on the various crops out there. And 
too often, as soon as they get home, the children come to hug 
them before they have had the chance to take off their clothes 
and so forth and get exposed to those pesticides, but we know 
it definitely has had a serious impact on Ventura County and 
all of the rest of the major agricultural counties there in the 
State of California. Thank you.
    Ms. Brownley. Thank you, sir.
    And, Dr. Bole, you know, as it relates to children, again, 
mentioning that asthma is the number one cause for children to 
miss school, but I am also very concerned about their mental 
health. Again, in my district in Ventura County, we have had 
two of California's largest wildfires in its history, and so I 
have seen the stress on families who have lost their homes and 
particularly their children. And schools and school sites are 
having to sort of rethink how they address these issues. And 
still these fires were a couple of years ago, but you can't go 
to a school campus or anywhere without first talking about the 
impacts of those fires. People are still talking about it and 
trying to work through it.
    So I guess my question to you is, you know, how do we need 
to rethink the mental healthcare in this country as it relates 
specifically to climate and climate change?
    Dr. Bole. Thank you for the question. Just briefly, I would 
like to comment on the fact that, for children of farm workers, 
it is important to point out that extreme heat is a factor in 
asthma exacerbations itself but also in birth outcomes. So 
preterm birth and extreme heat are related. So I just want to 
point out that our pregnant farm workers and young children and 
those teenagers who are outside are at risk for multiple 
reasons. So I appreciate you pointing that out.
    On the topic of mental health, I think it is a really 
important one. And when we think about young children who are 
dependent on adults for their daily needs, dependent on a 
healthy community infrastructure for their ability to grow and 
thrive, these lasting mental health impacts of extreme weather 
events, whether it is wildfires or storms in the southeast, we 
have increasing data that the post-traumatic impacts really 
interfere with children's ability to grow, develop, and learn. 
And so to be able to be prepared for that response and also to 
help children sort of cope with their fears about the future 
and I think climate action that is hopeful, solution-oriented, 
and urgent has to be part of addressing children's mental 
health needs at this time. So thank you for that question.
    Ms. Brownley. Thank you, Madam Chair.
    I yield back as well.
    Ms. Castor. Mrs. Miller, good morning. You are recognized 
for 5 minutes.
    Mrs. Miller. Good morning, and thank you, Chair Castor, and 
Ranking Member Graves who isn't here, for having everyone here 
and thank you all for taking the time to be with us today.
    A few years back, West Virginia made an attempt to require 
major energy utilities to have at least 25 percent of their 
energy come from renewable sources by 2025. This shift resulted 
in high energy cost where many had to make decisions about 
keeping the lights on or getting necessities, like prescription 
drugs and food, putting food on their table, and the 
legislation finally was subsequently repealed.
    I can remember retired school teachers who are living on 
hundreds of dollars a month, and it was really very difficult 
for them. Our witness, Mr. Hollie, who, unfortunately, was 
unable to be here today, discussed the prevalence of energy 
poverty. I have seen energy poverty with my own eyes, within my 
own community, and the negative impacts that it has on health, 
economics, and more. As I have said in this committee before, 
it is important, it is so important for us to be good stewards 
of our environment. However, that does not mean that we need to 
completely get rid of key, inexpensive base load energy. 
Innovative technology like carbon capture, the science is 
there. They can help reduce emissions for the base load energy 
year-round no matter what the weather is.
    Dr. Bole, when we have extreme weather events in the United 
States, we need to ensure that our Nation's hospitals are 
prepared and can support the influx in energy consumption in an 
efficient way to provide for continuity in care. How important 
is reliable base load energy to provide energy for hospitals 
during an extreme weather event?
    Dr. Bole. Thank you for the question. Certainly, the 
resilience of our healthcare facilities is something that is 
extremely important, and we are finding that combining energy 
efficiency--really aggressive energy efficiency measures are 
incredibly important for enhancing our resilience as a 
healthcare system in this country, as well as a lot of really 
innovative strategies around, for example, combined heat and 
power, other kinds of mixed sourcing of energy that is really 
kind of advancing healthcare facility resilience, something 
that we are seeing come into play. Increasing number of 
hospitals are understanding climate action to be a really 
important part of our ability to remain resilient in this time 
of changing climate.
    So you are absolutely right that reliable energy is 
incredibly important for hospitals during times of crisis, and 
we know that investing in efficiency, transitioning to 
renewable energy is sort of part of the solution. And 
increasingly the healthcare sector is playing a leading role in 
that transition.
    Mrs. Miller. I live near a hospital, and I feel very 
fortunate because, when we do have extreme weather, say, a 
terrible snow or ice that affects people's electricity, mine is 
still on. But I know the time when we will be in complete 
darkness, you can still see that hospital with the lights on 
and what a secure feeling it gives you. How can we ensure 
energy remains reliable during influxes of consumption?
    Dr. Bole. I think that question goes beyond hospitals; it 
goes to communities. And so, if I may, I invite some of my 
other fellow panelists to comment because your question I don't 
think is confined to hospitals. I will tell you, as I said, 
that, depending on the region, that hospitals are employing a 
variety of different strategies, and we are finding 
increasingly there are hundreds of hospitals committing to 
efficiency, to increased renewable sourcing, to strategies that 
can really help mitigate the root causes of climate-related 
events that are becoming more and more frequent that threaten 
our ability to serve the patients who need us the most.
    Mrs. Miller. Well, I have only got one more minute and I 
have two more questions. The select committee has discussed a 
lot about resilience and how important it is that we ensure our 
Nation's infrastructure is prepared for extreme weather events, 
and how resilient do you feel that our Nation's health systems 
are?
    Dr. Bole. I think we are very fortunate that our healthcare 
sector and healthcare leaders have been very engaged in 
disaster preparedness for a very long time. Many of my 
pediatric colleagues are very active in that space. So I think 
that we have made a lot of advances around healthcare facility 
resilience, and we continue to do that. I think what we need to 
do is really incorporate climate-change-related events and 
forecasting about climate-related events, severity and 
frequency in our disaster preparedness. And I would say 
centering a child's health and the ability to continue to 
deliver pediatric health services in this changing climate is 
going to be incredibly important for our disaster preparedness 
efforts going forward.
    Mrs. Miller. Have you seen the impacts of energy poverty in 
children who seek medical care?
    Dr. Bole. You know, in my State of Ohio, we do see issues 
with all kinds of resource insecurity, including utility 
insecurity, and actually home weatherization, energy 
efficiency, even residential solar generation are all part of a 
true root cause kind of solution to energy and security in my 
community. We are seeing that happen every day.
    Mrs. Miller. Thank you.
    I yield back.
    Ms. Castor. Thank you.
    Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you, Chair Castor.
    Thank you to all of our witnesses.
    We know that the climate crisis will disproportionately 
affect the health and well-being of low-income communities, 
people of color, children, and older adults. We have a 
responsibility to take action to address that.
    Ms. McCarthy, during your tenure at the Environmental 
Protection Agency, the social cost of carbon was a foundation 
of important environmental regulations, including the Clean 
Power Plan. We had many conversations about that in the 
Science, Space, and Technology Committee over the years. The 
social cost of carbon has been used to express the dollar value 
or cost of climate damage caused by 1 ton of carbon dioxide, 
and it actually reflects the socioeconomic and ecosystem 
damages from emissions and helps us translate to the long-term 
consequences into present value.
    Unfortunately, in 2017, President Trump signed an executive 
order disbanding the Interagency Working Group on the Social 
Cost of Carbon. I am concerned that the absence of that 
analysis is being used to justify or rationalize harmful and 
regulatory decisions, and I know that Natural Resources Defense 
Council released a report titled ``Bitter Pill: The High Health 
Cost of Climate Change,'' and that report recommended examining 
how the social cost of carbon could be updated.
    So, beyond reinstating the interagency working group, how 
should Congress incentivize the reinstatement of an accurate 
social cost of carbon, and how can we support Federal agencies 
in better quantifying the health damages in a renewed social 
cost of carbon analysis?
    Ms. McCarthy. First of all, thank you for the question. We 
all know that the challenge of Federal agencies is to look at 
all of the cost and benefits of the actions that it takes. 
Clearly, the social cost of carbon was established to allow us 
to understand the full breadth of consequences of the carbon 
emissions that are fueling climate change and how we can reduce 
those and account for those in decisionmaking. And you are 
right. This administration is--has decided to move away from 
looking at the full cost, but I would also caution you to think 
about their fundamentally stop looking at climate change 
period, not just the full breadth of social consequences with 
our changing climate. And to me that is like a bank statement 
where you only look at deposits and not withdrawals, and I 
think that we need to go back and take a look at this.
    I do know that people outside of the government continue to 
look at updates on the social cost of carbon because I think we 
seriously underestimated those costs, and so I think there will 
be many people fully prepared to both challenge rules that 
don't consider climate change every step of the way, including 
actions and accounting for the broad social cost. NRDC is one 
of those.
    Ms. Bonamici. Thank you. I appreciate the panel today 
helping to highlight that issue. I want to get to Mr. 
Rodriguez. Your testimony you shared those powerful stories--
thank you so much--of the farm workers who felt pressure to 
keep working in harmful conditions. And as a member of the 
Education and Labor Committee, I am certainly pleased to 
support Congresswoman Chu's bill to adopt a final standard on 
the prevention of occupational exposure to excessive heat. What 
additional steps can Congress take to safeguard outdoor workers 
from heat-related illnesses and death and provide workers with 
appropriate remedies in the event their rights are violated?
    Mr. Rodriguez. For me?
    Ms. Bonamici. Yes.
    Mr. Rodriguez. Okay. Sorry. Well, thank you, again, for the 
question. You know, Congresswoman Judy Chu, my understanding, 
at least, has already introduced legislation here in Congress.
    Ms. Bonamici. Right. I am proud to cosponsor that.
    Mr. Rodriguez. Oh. Fantastic. So we are very hopeful that 
really that there is going to be support for that legislation, 
and I was mentioning earlier that, in negotiations this past 
year, around the immigration bill for farm workers, H.B. 5038, 
we were actually there sitting down with the agricultural 
industry with the leaders throughout the Nation. And we 
discussed this particular issue with them, and I think all of 
them voluntarily agreed that this is an issue that we don't 
have to really look further than what has already transpired 
and what has taken place, and we included that actually in the 
legislation. So we are of the mind that the agricultural 
industry has really recognized the importance of this, and we 
should all come together at this particular point with 
Congresswoman Judy Chu's and your bill to be able to really 
pass that legislation.
    Ms. Bonamici. I hope so. I represent a district in Oregon, 
your neighbor to the north in California, and I know how 
important our agriculture community is, and the workers 
absolutely need to have that protection. One more quick 
question for Ms. McCarthy, harmful algal blooms you mentioned. 
We know that is a problem across the country, coastal 
communities as well as Great Lakes, rivers, streams. The EPA 
lacks an authorization or adequate appropriations to respond to 
that. So what resources does the EPA need to adequately respond 
to the health threats posed by algal blooms, particularly in 
terms of access to safe and clean drinking water?
    Ms. McCarthy. It needs a couple of things. One is it needs 
resources to be able to continue to track and make these 
harmful algal blooms better visible to people. So transparency 
is going to be important. But we do--the EPA does have some 
authority here. Unfortunately, the waters of the U.S.--that is 
not what it is called anymore, but any ways, whatever was just 
finalized which looks at what waters are protected, it really 
has cut the legs out of the ability to be able to look at some 
of the waters in streams and wetlands that are important to 
protect, that would eliminate some of the sources of 
contamination that are causing harmful algal blooms. And let's 
just very quickly remind ourselves that this isn't just about 
keeping waters swimmable and fishable; this is directly about 
drinking water. Those harmful algal blooms created the 
cyanotoxins that shut down an entire city of Toledo for a 4-day 
stretch, and we need to remind ourselves that these are issues 
that are bad for our economies but fundamentally threaten our 
drinking water.
    Ms. Bonamici. Thank you. I see my time is long expired.
    I yield back. My apologies.
    Ms. Castor. Mr. Graves, welcome. You are recognized if you 
would like to make some opening comments and then lead into 
your questions.
    Mr. Graves. Sure. Thank you, Madam Chair. I want to thank 
all the witnesses for being here today. I appreciate you being 
here and appreciate your testimony. We have had a chance to go 
through your written remarks.
    Administrator McCarthy, it is nice to see you, again.
    Ms. McCarthy. You too.
    Mr. Graves. I think we did a good bit of work together on 
the BP oil spill, and I don't think I have seen you since, but 
nice to see you.
    Ms. McCarthy. I remember. It is good to see you too.
    Mr. Graves. I appreciate you being here.
    Dr. Bole, this hearing has been about the health impacts of 
greenhouse gas emissions. If the United States was a party to 
an agreement that would result in a net increase in emissions, 
is that heading in the right direction?
    Dr. Bole. Thank you for the question. Can you clarify what 
you mean?
    Mr. Graves. Sure. Sure. If we were a party to an agreement 
that resulted in a net increase, a net increase in emissions, 
is that--are we heading in the right direction?
    Dr. Bole. Well, I appreciate the question. You know, it is 
true that climate change is a global problem and requires a 
global solution. It requires the United States to lead in that 
space. What I can tell you--and I am not sure if I am quite 
getting to what you are asking--what I can tell you is that 
reduction in greenhouse gas emissions has both long-term health 
benefits for children--so I focused a lot on those long-term 
health benefits in terms of the effects of increased 
temperature on things like surface ozone, aeroallergens, 
changing patterns of infectious disease, but it is important to 
note that there are also immediate co-benefits of decreasing 
those emissions, both locally and globally. So some of those 
local impacts and immediate impacts relate to decreasing 
particulate emissions from the immediate effects of burning 
fossil fuels and also creating some of those walkable more 
active transit-friendly communities that I mentioned in my 
testimony. So I guess what I am saying is a reduction of 
emissions has both immediate and long-term benefits. I am not 
sure if I am fully understanding what you are asking.
    Mr. Graves. So, if I were to flip that over and an increase 
in emissions basically is not heading in the direction that, 
based on your professional opinion, is where we need to be 
going?
    Dr. Bole. To increase fossil fuel, burning of fossil fuels, 
is not the right direction, no.
    Mr. Graves. Well, let's distinguish those, though. It is 
not--it is not the utilization of fossil fuels; it is the 
emissions.
    Dr. Bole. Well, it is both. I mean, transitioning to a--
maybe I am not following.
    Mr. Graves. Well, let me--two separate points. I think it 
is important distinguishing the difference between fossil fuel 
utilization and emissions. The fossil fuel utilization 
themselves, that doesn't cause health impacts. It is the impact 
of the emissions is what your testimony is about and where the 
concerns are. Let me separate these out and happy to give you 
more time to answer the second part, but on the first part, the 
Paris accords that folks are out there touting and saying are 
great, for every 1 ton of emissions the United States has 
reduced, China has increased emissions by 4 tons. This is a 
global issue. It is a global problem, and it is going to 
require global actions, global solutions. And it is concerning 
to me when folks talk about the Paris Accords and how great 
these are whenever the reality is, under the agreement, China 
was allowed to increase emissions. And it seems contrary to the 
very direction that I believe everyone up here hopes that we 
can head in.
    The United States has been the world leader in emissions 
reduction, and we need to continue moving in that direction. 
And so my point is I just wanted to emphasize that, under the 
Paris Agreement, China is actually able to increase their 
emissions by 50 percent through 2030, and to date they have 
actually quadrupled the emissions increases for every 1 ton--
for every one unit of reduction we have had in the United 
States.
    Now moving on to the second point. So many people during 
this hearing and in testimony, it is--folks are talking about 
fossil fuels and saying fossil fuels are the enemy; keep it in 
the ground. The science actually shows that it is the 
emissions. There are many products, there are many things that 
we deal with every single day, and, as a physician, you do 
and--but the deal is, is there are safe ways of handling 
things. There are ways of neutralizing the adverse 
constituents, components, or outcomes of that product, and an 
example is, in the Houston area right now, there is an 
electricity generation facility known as Net Power. It is 
natural-gas-fired electricity, meaning it is a natural gas 
electrification facility, but it has net zero emissions, net 
zero emissions. So I don't want to confuse fossil fuels--just 
like we don't throw out the baby with the bathwater and 
everything else--if we can find ways to utilize those products 
in a way that reduces or eliminates emissions. In fact, there 
are some technologies that are being researched now that would 
be a net reduction in emissions. And so I want to urge 
everyone, as we think forward in terms of our solutions, let's 
be careful about how we talk about things and be thoughtful 
about basically not preventing ourselves from being able to 
bring real solutions to the table, which would be emissions-
free energy technologies such as like what is being done in the 
Houston area right now.
    Madam Chair, I think you may have something to say, if you 
don't mind, just giving her a few seconds to respond if you 
wanted to. You looked like you wanted to say something.
    Dr. Bole. I didn't know if you had a question for me about 
that.
    Mr. Graves. Well, I think it just goes back to what I was 
saying earlier. We have got to be careful about separating--oil 
and gas are just conventional fuel usage--with our objective, 
which is actually reducing emissions.
    Dr. Bole. I appreciate the point about a variety of 
different technologies. I am not an engineer. I am a 
pediatrician. But what I can say is that--I can say, 
respectfully, is that, in general, a transition to clean and 
renewable energy for both power generation and transportation 
is going to be a critical underpinning of protecting children's 
health, both immediately from the immediate impacts of burning 
those fuels that create emissions right now, but also in the 
future.
    Mr. Graves. That create emissions. And Dr. Bole, I agree. 
Reducing emissions, I will say it again: I agree with you in 
regard to that objective. I think we also need to look 
holistically--and I want to also be clear, I fully support the 
utilization of renewable energy sources. I think it needs to be 
part of our portfolio. We need to look at the holistic impact 
of environmental impact of those, such as the mining impacts in 
Asia and Africa and other places. We need to look at the 
limitations on battery storage technology. We need to look at 
the carbon that is utilized in wind turbines and other products 
as well to make sure that we understand the full environmental 
impacts.
    Madam Chair, thank you for the liberties there.
    I yield back.
    Ms. Castor. Mr. Levin, you are recognized for 5 minutes.
    Mr. Levin. Well, thank you, Chair Castor, for holding 
today's hearing. Very pleased we have the opportunity to 
discuss the health impacts, and I grew up in southern 
California where we used to have smog alerts all the time. We 
got tough and smart. We dramatically reduced air emissions. It 
is not just greenhouse gas emissions. It is also criteria 
pollutant emissions, NOX and SOX and particulate matter, and I 
thank you all for the great work you have done.
    Administrator McCarthy, we need you back because I have 
seen five or six decades of bipartisan progress on working 
together--The Clean Air Act, Clean Water Act, Endangered 
Species Act, National Environmental Policy Act: it is all under 
threat in a way that I never expected. As an environmental 
lawyer practicing in California where we have had a waiver 
under the Clean Air Act because we got tough and we got smart 
on emissions long before it was popular to do so. And now I 
have a 7-year-old and a 5-year-old, and they are able to 
breathe cleaner air than I did because of the work that we did. 
That is all under threat as well, but I wanted to ask a couple 
of related questions.
    My district today in northern San Diego County, South 
Orange County is feeling the impact of sea level rise in a very 
profound way, and it is clear to me that the costs of inaction, 
of doing nothing, far exceed the cost of action as particularly 
true with regard to health, where, again, if I heard you 
correctly, ten climate events in 2012 alone drove $10 billion 
in healthcare costs. My guest at the State of the Union last 
night was a gentleman named Dr. Pat Davis who tragically lost 
his wife, his daughter, and his sister-in-law when a bluff 
collapsed on them. He was right next to them when a bluff 
collapsed, and we are seeing unprecedented coastal erosion and 
all the rest, flooding and fires as we have not seen before in 
California. We know it is impacted by climate change because 
the researchers and the science talk about the science. The 
scientists in my district at the Scripps Institution of 
Oceanography know that this is directly related to climate 
change.
    So, Ms. McCarthy, Dr. Bole, can you explain some of the 
most serious public health impacts of sea level rise, coastal 
erosion, and coastal flooding?
    Dr. Bole. Go ahead.
    Ms. McCarthy. Let me just start, and it seems awkward that 
I am answering the health question, but that is okay.
    Mr. Levin. I think you are qualified to answer any of these 
questions.
    Ms. McCarthy. You know, I think it is important to 
recognize that the challenge you mentioned, which is human 
lives are being lost immediately as a consequence of our oceans 
rising and the challenges that we are seeing in these extreme 
weather events, but what people tend not to think about is, 
every time you have those flooding events, you are 
contaminating potentially significant drinking water for a very 
long time.
    And we see that with wildfires happening. The same thing. 
There are long-term consequences. When you respond, like EPA is 
required to do in the event of these emergencies, you are 
responding because we have oil tanks that have flooded. You 
have systems that don't work. The ability of Congress to move 
forward with infrastructure as you want to do investments is 
going to be essential for that protection, but each of them has 
to be designed with climate change in mind.
    We have to get real and recognize that 100-year storms when 
they happen every year are badly named. And we have to get real 
and address these issues because it is not just an extreme 
weather event and what happens that day, but it is the 
consequence of year after year of looking at contaminants in 
our drinking water that we either don't know about or can't 
fix.
    Mr. Levin. Dr. Bole.
    Dr. Bole. Thank you for the question. And thank you for 
reminding us that, when we talk about emissions, we are talking 
about those criteria air pollutants, and that is what I mean 
when I talk about immediate co-benefits of making this 
transition, but about health impacts of flooding and issues and 
coastal regions with sea level rise, Gina mentioned some of 
them. And I will just add that, in addition to some of the 
drinking water contamination that she mentioned, we may also 
see that vector-borne illnesses, especially when there are 
vectors like mosquitoes that thrive in standing water, 
especially if it is warm, that can be an issue in some of our 
coastal communities, as well as other water-borne illnesses 
that are not vector borne can really start to plague 
communities that never saw some of those illnesses before that 
were not previously endemic regions for those illnesses and 
that, therefore, may not be really equipped from a public 
health perspective to handle it. So I think that is part of 
what we need to think about when we talk about climate smart 
planning for disasters in those coastal regions. We are talking 
about infectious diseases, about drinking water, and then, of 
course, also displacement, property damage and some of the 
catastrophic events you described.
    Mr. Levin. I am out of time. I greatly appreciate--Mr. 
Rodriguez, you had one last comment.
    Mr. Rodriguez. Just one quick point. I know Orange County 
no longer is a big agricultural county like it used to be, but 
what is happening in those counties that still provide 
agricultural products like Ventura County and Monterey County, 
Salinas Valley, the salad bowl of America, we have been 
suffering a lot as a result of water intrusion and so forth. 
And in Monterey County, saltwater intrusion there is eroding 
the valley. That is one of the prime counties in America for 
providing fruits and vegetables to Americans and to other 
people across the world. And so we are in danger of really 
losing these agricultural communities because of sea level rise 
and water intrusions and so forth.
    And thank you very much.
    Mr. Levin. Thank you for that. Thank you for reminding us 
all how many great things come from California.
    And I will yield back.
    Mr. Carter. Did he name both of them?
    Mr. Levin. There is a lot more, buddy. There is a lot more.
    Ms. Castor. All right. Mr. Carter, you are recognized for 5 
minutes.
    Mr. Carter. Thank you very much, Madam Chair, and thank you 
for holding this hearing.
    Thank all of you for being here. We appreciate it very 
much.
    I have the honor and privilege of representing the First 
Congressional District of Georgia, which includes the entire 
coast of Georgia and a lot of rural area in south Georgia. As 
we say quite often, there are two Georgias; there is Atlanta, 
and then there is everywhere else. And I represent everywhere 
else in rural Georgia. And I want to talk about--but before I 
do talk about this, let me also mention--and this may come as 
news to my colleagues up here--that Georgia is the number one 
forestry State in the Nation. And I just want to make sure that 
everybody understood that and knew that, and we are.
    But, nevertheless, I want to talk about rural America 
because I think it is extremely important. Mr. Rodriguez, would 
you agree that the rural areas in our country have unique 
challenges when it comes to creating solutions to climate 
change, and it is essential that our rural areas have a voice 
in this process?
    Mr. Rodriguez. Well, definitely. I mean, as a result of the 
climate change now, we have seen in your State in Georgia as 
well as many other States across the country, the increase in 
temperatures, especially during the harvest season times. And 
just recently, within the last 2 years, we had a farm worker 
die in your State as a result of exposure to heat illness. And 
the temperatures have risen.
    When we don't provide shade or provide drinking water or 
supervisors and foremen and ranch managers are not adequately 
trained on how to deal with these particular situations, we 
have a really severe impact in terms of what is taking place 
with agriculture and agricultural workers in those particular 
communities. So, yes, it is definitely having an impact in 
rural areas, in your State as well as many other States across 
the country.
    Mr. Carter. Let me ask you--and I will ask you, and then I 
will ask Dr. Bole the same question--but should we be focusing 
on making sure that our rural hospitals are resilient and that 
they--especially to severe weather events because we have had 
so many rural hospitals, particularly in Georgia, that have 
closed and this creates a real challenge to our area?
    So is it important that we concentrate on that as 
legislators, Mr. Rodriguez, on our rural hospitals?
    Mr. Rodriguez. You know, definitely we have to be--ensure 
that the doctors, that the medical facilities, that they are 
also very knowledgeable about heat exposure and the impact that 
it has on workers, on the lives, and what that can do to folks. 
And I know oftentimes we have not found that to be the case in 
particular areas and so forth. Now I think people are becoming 
much more--they are recognizing what this heat exposure does to 
folks, and they are dealing with it in a much more meaningful 
way in terms of avoiding further deaths of farm workers and 
folks within rural communities.
    Mr. Carter. Okay. Thank you.
    Dr. Bole, what would you say in regards to our rural 
hospitals? How important is it that we make them resilient and 
that they are trained to deal with these severe weather events 
and make sure that we have these safety net hospitals?
    Dr. Bole. Thank you. Thank you for the question. We 
certainly have rural hospitals in my region, though I practice 
in Cleveland, northeast Ohio is home to many rural hospitals 
and also many communities who are challenged for access to care 
in rural regions. So, to answer your question, I do think it is 
important that rural hospitals be part of the solution when it 
comes to resilience to some of these extreme weather events. 
When you talk about access, your comment about those hospitals 
closing and some of those--impaired access for some of those 
communities, I think that gets into a much broader issue that 
may be out of scope for this particular group related to 
healthcare reimbursement and some of the financial pressures on 
those hospitals that are causing some of them to close. But 
from the standpoint of resilience and preparedness and 
training, as Mr. Rodriguez said, I concur that those points of 
access are important.
    Mr. Carter. Just a general question, even to you, Ms. 
McCarthy, do you think that we are directing too much of our 
resources to the urban areas and not enough to the rural areas?
    Ms. McCarthy. I don't know if I have a good breakdown of 
what that allocation might be, but I totally agree with you 
that attention in rural communities is extremely important, and 
I know this committee has been looking at some of those issues, 
in particular, with hospitals and the fact that we have only 
one program--and that is at the CDC--that really helps both 
States and local communities to address hospitals and ensure 
that they are resilient.
    And so I would totally agree with you that we have to look 
at those issues, and I have not seen a great commitment on the 
part of this administration to do that, and it should be fully 
funded. There should be activity looking at where access is 
available, not just where the hospitals are resilient. There is 
something called a hospital stress test that I know folks have 
been talking about which is great. It is an opportunity to look 
at what are we missing, what are we not thinking about, how do 
we plan for those extreme weather events, how do we have our 
supplies ready, and we have seen some of that work highlighted 
in terms of its importance with the challenges that Puerto Rico 
has faced, which actually shut down medical equipment that 
impacted the entire country. And so I agree with you. This is a 
big deal issue, and it should be resourced effectively.
    Mr. Carter. Great. Thank you very much all of you.
    And I yield back.
    Ms. Castor. Mr. Huffman, you are recognized for 5 minutes.
    Mr. Huffman. Thank you, Madam Chair, and thanks to the 
witnesses for a great conversation.
    I want to continue a few of the threads that my friend, Mr. 
Graves, started in his comments.
    And, Director McCarthy, you are pretty familiar with the 
Paris accord?
    Ms. McCarthy. Yes.
    Mr. Huffman. So, lest we just accept this notion that it 
allows a net increase in emissions, I want to drill in a little 
deeper because my understanding is that, while the United 
States is committed to a reduction, developing countries, 
although they will continue to increase emissions for a period 
of time, it is a much lower increase and eventually will cap 
and decline as well.
    So I wanted to see if you agreed with the fairness of Mr. 
Graves' characterization that the Paris accord calls for a net 
increase in emissions relative to the status quo?
    Ms. McCarthy. I think it is clear that we are looking for 
every country to contribute. And China's commitment, and one of 
the major parts of the commitment, was to cap its emissions 
because it has numerous communities that it's trying to build 
out of poverty, and they are looking at strategies now to do 
that in a way that is reliant more on clean energy than it is 
on coal. And so there is actually an accelerated process in 
China to do even better than what they committed to about 
capping their emissions.
    And so one of the challenging things we have to look at 
that wasn't mentioned is that the U.S. has been on a trajectory 
up until 2018 of lowering its carbon emissions, and now we are 
going----
    Mr. Huffman. We are sliding back.
    Ms. McCarthy. And so, at best, we can see maybe a 4-percent 
reduction in the U.S. in 2050 when we have to be net zero.
    Mr. Huffman. The bottom line, even China, under the Paris 
accord, lower emissions than without the Paris accord, correct?
    Ms. McCarthy. But it certainly doesn't help to have the 
U.S., which is number two now, actually increasing our 
emissions considerably and changing that trajectory that we 
have been all hoping that would be on a much steeper downward 
trend.
    Mr. Graves. Will the gentleman yield?
    Mr. Huffman. Well, if I have time at the end, I will. But 
couldn't agree more. Now, on the notion that we only need to be 
concerned about the emissions from fossil fuel. First of all, 
with respect to these--we hear this a lot under the term 
``innovation'' from some of our colleagues across the aisle. As 
far as I know, every carbon capture project out there, 
including the one in Houston that was referenced, is simply 
taking the carbon captured from that particular emission source 
and then putting it back in the ground to enhance oil recovery. 
In other words, yes, you could say it is a net zero natural gas 
plant in Houston; however, that carbon is being used to develop 
more oil that is in turn burned without capture in various 
ways. So that is not really net zero. Do I have anything wrong 
with those facts?
    Mr. Graves. Yes.
    Mr. Huffman. My time for now, and I will see if I can get 
to Mr. Graves.
    Ms. McCarthy. Just very quickly. I know there is a lot of 
new creative thinking about CCS, but the thing we are not 
looking at is the fact that you extract the fossil fuels itself 
is a decision point of emitting significant amounts of methane 
volatile organic compounds. These are challenges for 
communities both from a health perspective and a climate 
perspective.
    Mr. Huffman. So I will come back to that because it is more 
than just the burning that causes the issues, but when we 
capture carbon only to use it to develop more oil that is 
burned without capture, that is not exactly a closed loop----
    Ms. McCarthy. As far as I know, that is the only 
financially viable way that anyone has come up with. So it 
seems like you are robbing Peter to pay Paul.
    Mr. Huffman. Yes. I agree. Now, also, I was just in Mr. 
Graves' beautiful state of Louisiana, and he showed me some 
amazing places. From the air, we got to see areas that were hit 
very hard by the BP oil spill. And so I am immediately reminded 
when we talk about emissions being the only aspect of the 
public health problem with fossil fuels, well, there is also 
that other type of catastrophe, the catastrophic oil spills, 
which did hit, I think, a lot of struggling, low-income 
disadvantaged communities very hard.
    Mr. Graves lived through it. He showed me some of the 
continuing legacy effects of that. And we also, you know, seems 
like, every few weeks, there is an explosion in a refinery. You 
have got entire communities that are located near these fossil 
fuel facilities that live in fear of things going wrong. I have 
never heard of a catastrophic wind or solar spill or a 
catastrophic wind or solar refinery explosion. So let's just 
push back for a minute on the notion that it is only the 
emissions that cause the public health concerns. You are 
welcome to comment on that as well.
    Ms. McCarthy. Well, there is huge cost associated with 
fossil fuel extraction and use and in products. So let's not 
forget that plastics aren't going away in our ocean because 
they are fossil fuel based. Let's not forget about the toxics 
that are in our blood as a result of fossil fuels products 
being in the products that we buy and consume. So there is a 
lot of challenges here that we need to face, but the bright 
spot is that fossil fuel energy is simply less attractive and 
more expensive in many ways directly across the country now. So 
we should celebrate that.
    Mr. Huffman. And I am sorry, Mr. Graves, that I didn't have 
time for a colloquy. I always enjoy them. Maybe the chair will 
find some time for us to do that.
    Ms. Castor. Thank you very much.
    Mr. Palmer, you are recognized for 5 minutes.
    Mr. Palmer. Thank you, Madam Chair.
    I will be happy to yield 30 seconds to my colleague, Mr. 
Graves.
    Mr. Graves. See how that works. Thank you. I want to thank 
the gentleman from Alabama.
    A few quick points. Number one, China being considered a 
developing nation is completely laughable and any agreement 
that includes that. They are spending not millions but 
trillions of dollars in military activities and investment in 
other countries. Absurd that anyone pretends to say, ``Oh, let 
them go. They are a developing nation.'' Totally inappropriate. 
I understand it is not your fault, but inappropriate.
    Number two, other impacts of the oil spill. Look, this is 
the point I make all the time: When we don't produce energy 
domestically facts, facts have shown what happens is we import 
it from other countries, which means you have a less--a higher 
chance of spilling it. A higher chance of spilling it by 
importing it from other countries. Statistics are crystal 
clear----
    Mr. Huffman. Will the gentleman yield for just a 
clarification?
    Mr. Graves. I would love to----
    Mr. Huffman. Does that mean we only have two choices----
    Mr. Graves. Renewables are not without impacts. Madam 
Chair? Madam Chair, I did not yield.
    Renewables are not without impacts. They are not without 
impacts. It has been proven. They have environmental impacts as 
well. You look at the manufacturing that they have stolen from 
us in intellectual property. You look at the child labor that 
is happening in China. These things are unbelievable in some 
cases, and we cannot just say, ``Oh, look, it is wind; it is 
okay.'' The bird blender thing and other impacts as well.
    Lastly, yes, we did have an increase after a 15-year 
decrease under Republican and Democratic administrations in 
emissions. We cannot forget--none of us can--Republicans or 
Democrats, we are the global leader in emissions reduction, 
period. Stop sitting there saying we have got to take a 180. 
What we need to be doing is looking and seeing how we have been 
the global leader and build upon those successes. And, of 
course, that does include renewables. It has got to. But we 
have got to be thoughtful and make sure that we are making 
fact-based decisions and not out there chasing unicorns.
    Now, last year, yes, they went up. But you know what else 
happened? We lifted people up out of poverty. We have the 
lowest unemployment rate that we have had in decades. That is 
exactly right. That is exactly right. I remember seeing you sit 
down. Sorry we put that super glue in your chair, but, Madam 
Chairman, this is a huge deal. We lifted people out of poverty, 
and for 2020, we are going to be back to a net reduction. I 
want to thank my friend from Alabama.
    Mr. Palmer. The magic 30 seconds. I thank the gentleman.
    I want to make a few points here that you talk about asthma 
rates, and the fact is, is that we don't know what causes 
asthma. The National Institute of Environmental Health, CDC, 
makes clear we don't know what causes asthma. We know things 
that exacerbate it, and a lot of that is related to emissions, 
but the interesting thing is, since 1970s, since we have passed 
the Clean Air Act, the economy has almost tripled. It has grown 
by 295 percent, yet emissions have declined by 74 percent. And 
that includes nitrogen dioxide, which is related to traffic 
congestion, which is a factor in exacerbating asthma. And so 
you come in here and you talk about these things that--as 
though climate change or CO<INF>2</INF> or something like that 
is causing asthma. That is a misrepresentation.
    In terms of Massachusetts, you know, your government in the 
State of Massachusetts will not buy gas that is produced in the 
Marcellus Shale Formation from Pennsylvania. You have got some 
of the highest household energy costs in the country. You are 
literally--and these are stats from Nationwide--well, 24 
percent of the families are going without food for at least 1 
day because they are having to choose between buying food or 
paying their household energy costs, you know, keeping them 
from freezing to death or burning up in the summertime; 37 
percent went without medical or dental care; 34 percent did not 
fill a prescription or took less than a full dose; additionally 
23 percent kept their homes at a temperature that was unhealthy 
or unsafe. And the interesting thing about Massachusetts--and 
you come in here, and you want to talk to us about emissions--
you are buying gas from Russia, which is at best an adversary, 
at worst an enemy, and it is 41 to 47 percent emissions are 
dirtier than the natural gas you could buy right down the road 
from Pennsylvania. That makes no sense whatsoever.
    My last point in my last few seconds is when you talk about 
extreme weather events, would you consider a 200-year drought 
in California to be an extreme weather event? Anybody?
    Mr. Rodriguez. The drought?
    Mr. Palmer. Yeah, 200-year drought.
    Mr. Rodriguez. It is having a very big impact on 
agriculture.
    Mr. Palmer. Now here is the thing. The climate is changing. 
The geologic record shows the climate is changing. And if you 
look at the history of drought in California in the last 
thousand years around the 9th century, you had a drought that 
began in the middle of the 9th century lasted 200 years. Then 
you had a 50-year wet period, then you had another drought that 
lasted 180 years. We are not preparing for the climate change 
that is going to occur, and we are going to pay an enormous 
price, the people of this country are going to pay an enormous 
price if we keep chasing some of these issues that my 
colleagues are so focused on and we don't prepare for what is 
going to occur. And just study the science, study the geology, 
and you will figure that out.
    I yield back.
    Ms. Castor. I am going to give the--there was a lot there, 
Mr. Palmer. I am going to give the witnesses just a brief 
opportunity to answer quickly.
    Dr. Bole. Thank you. Thank you for the comments and for the 
opportunity. I just would like to briefly clarify the points 
about asthma. Number one, there is a lot of information about 
what exacerbates childhood asthma, and I want to clarify that I 
did not state that CO2 causes asthma. That is not true. That is 
not what I stated. But we do know a lot about what exacerbates 
asthma and that there are air pollutants that exacerbate asthma 
that result from burning fossil fuels, in addition--both from 
transportation and from power plants, but in addition, that 
rising surface temperatures--so rising surface temperatures in 
the context of climate change are resulting in alterations in 
air quality itself when it comes to increased surface ozone and 
increased aeroallergens that do have an impact on pediatric 
asthma.
    I also want to point out that asthma is only one common 
pediatric condition. I used that as an example in my remarks, 
but just want to clarify that those increased surface 
temperatures are causing complex changes, as I mentioned some 
examples earlier, that are also resulting in some pretty 
important pediatric health issues. So I think we talk a lot 
about asthma as we should because it is a very common pediatric 
health condition, but there are a lot of other conditions that 
I mention in my remarks, and I just want to clarify sort of 
what is causing what.
    And I don't know if, Ms. McCarthy, you want to clarify the 
second point.
    Ms. McCarthy. Yes. I just wanted to talk a little bit about 
Massachusetts, which I know a little bit about. I just wanted 
to point out I don't know where the data that you articulated 
comes from, but I would love to see it because, in my 
experience, Massachusetts has done a wonderful job and, in 
fact, throughout the region to take a look at how we can rely 
more heavily on renewable fuels and how that can help us keep 
energy demand down and how we can have that build a healthier 
future for ourselves.
    Now, the regional greenhouse gas initiative is a program in 
point. That started in 2009, and since then, it has created 
45,000 job years of work. It has grown the region's economy by 
$4.3 billion. It has provided public health benefits that are 
worth $5.7 billion, and energy bill savings of $1 billion. It 
has not caused individuals to have less money in their pockets; 
it has provided more money in their pockets. But I totally 
agree with you that no child should go hungry. We should figure 
out a way to resolve those issues, but I don't think it is the 
decision on energy in New England or Massachusetts that has 
caused that to happen.
    Ms. Castor. Thank you very much.
    Now I am going to ask to take my 5 minutes. This has been 
an interesting discussion.
    Ms. McCarthy, you stated that climate change is the most 
significant health challenge of our lifetimes, but I see it as 
an enormous opportunity when it comes to the public health. We 
are on the cusp of an exciting transition, for example, in 
school buses that children will be riding electric, clean 
school buses and the air that they breathe will be cleaner.
    Dr. Bole, you also mentioned the impact of asthma, as Ms. 
McCarthy did, if you live next to a highway. Think about the 
transition in the energy sector as the vehicles we drive become 
cleaner and greener and the air is improved for families across 
this country, energy efficiency that will put money back into 
the pockets of families.
    Ms. McCarthy, what else do you see on the horizon as an 
opportunity for America and for folks across the globe to 
harness the clean energy transition?
    Ms. McCarthy. Well, I am really excited. I realize that we 
spend a lot of time talking about Federal action, and I think 
this committee is going to be developing some policy 
recommendations that will be great to see. But I am excited 
about what is going on at the State and Federal level--at the 
State and local levels. I am excited about renewable energy. I 
am excited about ways in which we can invest in different types 
of transportation, like work that is being advanced through the 
transportation and climate initiative. I mean, these are multi-
state efforts where we are binding together and realizing that 
it is the future and the health of our kids and that we can 
have both. I am with you that it is an opportunity. We have 
solutions available to us. They can be as simple as addressing 
heat stress, not just for our farm workers, but in our inner 
cities for the elderly. We can do more, and we must.
    Ms. Castor. And, Mr. Rodriguez, God bless the farm workers 
who provide the food that families enjoy every day, and thank 
you for your work in California working with the agriculture 
industry to make sure that farm workers have basic protections, 
that they are not working outside without water and in the 
highest of heat indexes.
    So you have--they have adopted the standards in California, 
was there any impact on agricultural productivity or the 
economy there due to the adoption of heat standards in 
California?
    Mr. Rodriguez. No. In fact, we have seen the industry 
continue to prosper, and we are all very happy about that. And 
then we have seen some really innovative changes that some of 
the agricultural employers have made. I know when we first 
passed the regulations, there was tarps that were put out in 
the fields where workers could go for shade, and there was 
aluminum chairs set out. Now when you travel up and down 
Highway 5 and Highway 99 and see the agricultural areas there, 
you will oftentimes have trailers that are pulled out there 
with roofs on tops, tables, and benches there so that the 
workers can go there for not only to take a break but also go 
eat their lunch there. And it is a huge change, and that was 
primarily done by the industry itself.
    So we are very excited about what has already taken place, 
and we hope to see a lot more.
    Ms. Castor. Well, I would hope that farm workers and folks 
who work outside all across this country could enjoy the same 
protections, and I look forward to this select committee's 
recommendations to Congress to do just that.
    Mr. Rodriguez. Thank you very much on that.
    Ms. Castor. I would like to end, Dr. Bole, with you because 
our work here at the select committee has really highlighted 
our moral obligation that we have to our children and future 
generations to make sure that they grow up in a livable world. 
When the select committee makes its recommendations to the 
Congress, it is going to have to be built upon a foundation of 
environmental justice recognizing that our working class 
communities and communities of color have really bared the 
burden over the years of carbon pollution and fossil fuel 
development. Will you reference, when it comes to kids, this 
vulnerable group that we want to ensure that they have every 
opportunity to succeed in life, why hasn't it been, in your 
opinion, that it has been children of color, African American 
children, Latino children, children from working class 
communities that have borne the brunt of pollution? And what 
should we have in the front of our minds as we develop these 
recommendations for the Congress?
    Dr. Bole. Thank you for the question. So a couple comments. 
With respect to those communities of color, you know, when we 
have sort of a not-in-my-backyard kind of a mindset around some 
of these sources of pollution and some of the end results of 
pollution or where do we put our highways or what kinds of 
housing ends up near those highways, traditionally, politically 
marginalized or less powerful groups oftentimes are the 
recipient of those injustices. And so the first thing I would 
say when it comes to solutions is that members of those 
communities, we are seeing young people and leaders from 
historically marginalized communities just really coming out as 
strong, well-informed energetic leaders advocating for their 
own communities. So I think having a seat at the table for 
historically marginalized communities, their leaders, and their 
youth is critically important, and I just want to also circle 
back quickly to your opening comment about this being an 
opportunity.
    I absolutely agree, and I would really like to underscore 
that climate solutions are child health solutions. They have an 
impact on birth outcomes. If we are serious about infant 
mortality, we need to get serious about climate action. They 
have an impact on school readiness and neural development. We 
talk about school readiness all the time. If we want kids whose 
brains are growing in a healthy way and are ready for school, 
we got to be serious about clean air, climate action, and 
sustainable communities. Obesity, asthma, mental health issues, 
a lot of the thorniest chronic conditions that we pediatricians 
are dealing with when we see our patients, we know that climate 
solutions are truly upstream preventive solutions that can make 
a real difference on some of these intractable problems. So I 
see it as an opportunity as well, especially for our most 
vulnerable communities. So I thank you for framing it that way.
    Ms. Castor. Well, thank you all. Your testimony has been 
very helpful.
    And, without objection, all members will have 10 business 
days within which to submit additional written questions for 
all of our witnesses.
    I ask you all to respond as quickly as you possibly can.
    And at this time, I will recognize the ranking member for a 
UC request.
    Mr. Graves. Thank you, Madam Chair. Madam Chair, the one 
thing I said was inaccurate, just one, and I want to clarify 
that I said that emissions went up in 2019; they actually went 
up in 2018.
    I want to ask unanimous consent that we submit for the 
record a Rhodium Group report that shows that emissions 
actually decreased in 2019 by 2.1 percent and that we had the 
greatest reduction in emissions in the energy sector ever in 
2019, which was a 10-percent reduction.
    The report also shows that we have actually exceeded the 
emissions targets set by the Clean Power Plan, which was 32 
percent by 2030. We have actually hit 34 percent as of now, 
which is remarkable.
    Secondly, I want to submit a report indicating the price of 
electricity per State showing that those States that are more 
aggressive on climate have higher energy costs having a 
disproportionate impact on the poor.
    And, thirdly, and most importantly, Madam Chair, I want to 
submit a report showing that it is actually the State of Maine 
that has the highest percentage of forestry in the State. 
Georgia is down near number nine, which is somewhere in 
proximity of where their football team ended in the college 
football rankings.
    I yield back.
    Ms. Castor. Well, we, unfortunately, did not get copies of 
those reports. If you--so I am going to reserve ruling on that.
    And, in turn, since we have heard a lot about emissions 
today, I would like to point out that last week DOE's energy 
information outlook projected the current policies will mean 
that U.S. energy-related CO2 emissions, unfortunately, are 
poised to grow in the future. To get to net zero carbon 
pollution by at least 2050, as we have heard from scientists at 
our second hearing and as made clear in the National Climate 
Assessment and in the IPCC report, we need bold, Federal policy 
action on climate solutions, and that is what this committee 
intends to do.
    So thank you. We will reserve ruling on these UC requests, 
but I imagine we will take it up at our next hearing.
    Thank you to the witnesses today.
    We are adjourned.
    [Whereupon, at 10:28 a.m., the committee was adjourned.]

                       Submissions for the Record

                      Representative Garret Graves

                 Select Committee on the Climate Crisis

                            February 5, 2020

    ATTACHMENT: Preliminary US Emissions Estimates for 2019. Houser, 
T., & Pitt, H. 2020, January 7.
    The report is retained in the committee files and available at:
https://rhg.com/research/preliminary-us-emissions-2019/
    ATTACHMENT: State Electricity Profiles. U.S. Energy Information 
Administration. 2019, December 31.
    The data is retained in the committee files and available at:
https://www.eia.gov/electricity/state/

                 United States House of Representatives

                 Select Committee on the Climate Crisis

                      Hearing on February 5, 2020

                ``Creating a Climate Resilient America:

          Overcoming the Health Risks of the Climate Crisis''

                        Questions for the Record

                      The Honorable Gina McCarthy

                 President and Chief Executive Officer

                   Natural Resources Defense Council

                       the honorable kathy castor
    1. The impact of extreme heat on a person's health is relatively 
straight forward to understand. However, recent research has also found 
that these extreme weather events like extreme heat can impair a 
person's behavior and cognitive development. Can you explain more about 
this research?
    Extreme heat can exacerbate schizophrenia, suicidality, and other 
serious conditions among people with existing mental health illnesses, 
and affect cognitive abilities and sense of well-being among those 
without.\1\ \2\ \3\ \4\ \5\ \6\ The stress of unhealthy heat and other 
weather extremes has also been linked to impaired learning and behavior 
disorders in children.\7\
---------------------------------------------------------------------------
    \1\ Yoonhee Kim et al., ``Suicide and Ambient Temperature: A Multi-
Country Multi-City Study,'' Environmental Health Perspectives 127, no. 
11 (November 2019): 117007,
---------------------------------------------------------------------------
https://doi.org/10.1289/EHP4898.
---------------------------------------------------------------------------
    \2\ Jamie T. Mullins and Corey White, ``Temperature and Mental 
Health: Evidence from the Spectrum of Mental Health Outcomes,'' Journal 
of Health Economics 68 (December 2019): 102240, https://doi.org/
10.1016/j.jhealeco.2019.102240.
    \3\ Nai-Tzu Chen, Po-Hsiu Lin, and Yue-Liang Leon Guo, ``Long-Term 
Exposure to High Temperature Associated with the Incidence of Major 
Depressive Disorder,'' Science of The Total Environment 659 (April 
2019): 1016-1020, https://doi.org/10.1016/j.scitotenv.2018.12.434.
    \4\ Rupa Basu et al., ``Examining the Association Between Apparent 
Temperature and Mental Health-Related Emergency Room Visits in 
California,'' American Journal of Epidemiology 187, no. 4 (April 1, 
2018): 726-735, https://doi.org/10.1093/aje/kwx295.
    \5\ Clemens Noelke et al., ``Increasing Ambient Temperature Reduces 
Emotional Well-Being,'' Environmental Research 151 (November 2016): 
124-129,
---------------------------------------------------------------------------
https://doi.org/10.1016/j.envres.2016.06.045.
---------------------------------------------------------------------------
    \6\ Jose Guillermo Cedeno Laurent et al., ``Reduced Cognitive 
Function during a Heat Wave among Residents of Non-Air-Conditioned 
Buildings: An Observational Study of Young Adults in the Summer of 
2016,'' ed. Jonathan Alan Patz, PLOS Medicine 15, no. 7 (July 10, 
2018): e1002605, https://doi.org/10.1371/journal.pmed.1002605.
    \7\ Frederica P Perera, ``Multiple Threats to Child Health from 
Fossil Fuel Combustion: Impacts of Air Pollution and Climate Change,'' 
Environmental Health Perspectives 125, no. 2 (2017): 141-148.
---------------------------------------------------------------------------
    The mechanisms by which extreme heat harms mental health and 
cognitive function are not well understood. One possibility is that 
high temperatures affect how different parts of the brain ``talk'' to 
each other.\8\ For example, exposure to extreme heat may affect 
serotonin function, leading to increases in violence, impulsive 
behavior, or aggression.\9\ \10\ Another possibility is that hotter 
nighttime temperatures reduce sleep quality and quantity.\11\ \12\
---------------------------------------------------------------------------
    \8\ Mare Lohmus, ``Possible Biological Mechanisms Linking Mental 
Health and Heat--A Contemplative Review,'' International Journal of 
Environmental Research and Public Health 15, no. 7 (July 18, 2018): 
1515, https://doi.org/10.3390/ijerph15071515.
    \9\ Yoonhee Kim et al. ``Suicide and Ambient Temperature: A Multi-
Country Multi-City Study.'' Environmental Health Perspectives 127, no. 
11 (November 2019): 117007.
---------------------------------------------------------------------------
https://doi.org/10.1289/EHP4898.
---------------------------------------------------------------------------
    \10\ Ryan Harp and Kristopher Karnauskas, ``Global Warming to 
Increase Violent Crime in the United States,'' Environmental Research 
Letters, January 14, 2020, https://doi.org/10.1088/1748-9326/ab6b37.
    \11\ Nick Obradovich et al., ``Nighttime Temperature and Human 
Sleep Loss in a Changing Climate,'' Science Advances 3, no. 5 (May 
2017): e1601555, https://doi.org/10.1126/sciadv.1601555.
    \12\ Mullins, Jamie T., and Corey White. 2019. ``Temperature and 
Mental Health: Evidence from the Spectrum of Mental Health Outcomes.'' 
Journal of Health Economics 68 (December): 102240. https://doi.org/
10.1016/j.jhealeco.2019.102240.
---------------------------------------------------------------------------
    The disturbing evidence gathered so far on the link between heat 
and brain health points to the need for more research in this area. 
Further, climate and health adaptation plans should have a greater 
focus on mental health and cognitive functioning.
    2. In your testimony, you cite figures that could compromise our 
military's readiness posture. From 2014 to 2018, the rate of heat 
stroke among active duty members increased 73 percent and the rate of 
heat exhaustion increased nearly 53 percent. What are the national 
security implications if these figures increase?
    The Department of Defense (DOD) has reported that extreme heat is 
already affecting troop readiness.\13\ This is particularly true in the 
Middle East and the U.S. Southwest and Southeast, where extreme heat 
has interfered with training and testing operations.\14\
---------------------------------------------------------------------------
    \13\ Office of the Under Secretary of Defense for Acquisition and 
Sustainment, ``Report on Effects of a Changing Climate to the 
Department of Defense'' (Department of Defense, January 2019), https://
media.defense.gov/2019/Jan/29/2002084200/-1/-1/1/CLIMATE-CHANGE-REPORT-
2019.PDF.
    \14\ Government Accountability Office, ``Climate Change Adaptation: 
DOD Needs to Better Incorporate Adaptation into Planning and 
Collaboration at Overseas Installations,'' November 2017, https://
www.gao.gov/assets/690/688323.pdf.
---------------------------------------------------------------------------
    Extreme heat and drought can also damage roads and infrastructure 
at military bases, reduce the effectiveness of computer servers, cause 
water shortages, increase energy use, and increase social and political 
instability in some regions.\15\ \16\
---------------------------------------------------------------------------
    \15\ Ibid.
    \16\ Kate A. Guy et al., ``A Security Threat Assessment of Global 
Climate Change: How Likely Warming Scenarios Indicate a Catastrophic 
Security Future'' (Security, Military, and Intelligence Panel on 
Climate Change, The Center for Climate and Security, February 2020), 
https://climateandsecurity . files . wordpress . com / 2020 / 02 / a - 
security - threat - assessment - of - global-climate-
change_nsmip_2020_2.pdf.
---------------------------------------------------------------------------
    Thanks to the U.S. military's aggressive approach to identifying 
and treating heat-related illnesses, the death rate from extreme heat 
among service members has been relatively low in recent years.\17\ 
However, the Government Accountability Office found in June 2019 that 
``DOD installations have not consistently assessed risks from extreme 
weather and climate change effects.''\18\
---------------------------------------------------------------------------
    \17\ Benjamin P. Donham et al., ``Low Incidence of Death and Renal 
Failure in United States Military Service Members Hospitalized with 
Exertional Heat Stroke: A Retrospective Cohort Study,'' Military 
Medicine 185, no. Supplement--1 (January 7, 2020): 362-367,
---------------------------------------------------------------------------
https://doi.org/10.1093/milmed/usz214.
---------------------------------------------------------------------------
    \18\ Government Accountability Office, ``Climate Resilience: DOD 
Needs to Assess Risk and Provide Guidance on Use of Climate Projections 
in Installation Master Plans and Facilities Designs,'' June 2019, 
https://www.gao.gov/products/gao-19-453.
---------------------------------------------------------------------------
    The DOD needs to more ambitiously plan for and implement measures 
to both protect the health of service members and maintain our national 
security in the face of climate disruption.
    3. Our health care sector is of the utmost importance to prepare 
for and respond to disasters. The health sector must become climate 
resilient. What are some actions that Congress can take to make this 
critical health infrastructure climate-resilient?
    Climate change imposes huge cost burdens on the U.S. healthcare 
system by increasing illnesses and deaths, inflicting major damage on 
hospitals and other healthcare facilities, and creating extended 
disruptions in operations.\19\ \20\ For example, the NYU Langone 
Medical Center suffered nearly $1 billion in damages after Hurricane 
Sandy in 2012, and was unable to provide emergency room services for a 
year and a half after the storm.\21\
---------------------------------------------------------------------------
    \19\ Vijay S. Limaye et al., ``Estimating the Health-Related Costs 
of 10 Climate-Sensitive U.S. Events During 2012,'' GeoHealth 3, no. 9 
(September 2019): 245-265,
---------------------------------------------------------------------------
https://doi.org/10.1029/2019GH000202.
---------------------------------------------------------------------------
    \20\ Health Care Without Harm, ``Safe Haven in the Storm: 
Protecting Lives and Margins with Climate-Smart Health Care,'' 2018, 
https://noharm-uscanada.org/safehaven.
    \21\ Nate Seltenrich, ``Safe from the Storm: Creating Climate-
Resilient Health Care Facilities,'' Environmental Health Perspectives 
126, no. 10 (October 2018): 102001.
---------------------------------------------------------------------------
https://doi.org/10.1289/EHP3810.
    Despite progress in the wake of Hurricane Katrina and other major 
events, a recent review by Johns Hopkins' Bloomberg School of Public 
Health found significant room for improvement in the healthcare 
sector's resilience to large-scale natural disasters.\22\ Improvement 
is hampered by the current piecemeal approach to federal regulation of 
hospitals and other facilities, recent declines in funding for 
emergency preparedness in hospitals, and the complicated 
interdependence between privately-owned facilities and public 
infrastructure such as roads and electric utilities.
---------------------------------------------------------------------------
    \22\ Eric Toner et al., A Framework for Healthcare Disaster 
Resilience: A View to the Future, Johns Hopkins Bloomberg School of 
Public Health Center for Health Security, 2018,
---------------------------------------------------------------------------
http://www.centerforhealthsecurity.org/our-work/pubs_archive/pubs-pdfs/
2018/180222-framework-healthcare-disaster-resilience.pdf.
    Congress should:
          <bullet> Increase funding for the Hospital Preparedness 
        Program, which fell from $500 million in 2004 to $254.5 million 
        in 2019.\23\
---------------------------------------------------------------------------
    \23\ Steven Ross Johnson, ``Federal Hospital Preparedness Funding 
Weaker as Requirements Tighten,'' Modern Healthcare, August 20, 2019, 
www.modernhealthcare.com/government/federal-hospital-preparedness-
funding-weaker-requirements-tighten.
---------------------------------------------------------------------------
          <bullet> Ensure healthcare practitioners have ready access to 
        reliable climate risk data and the technical support they need 
        to make decisions. For instance, nearly a third of the 16 
        Harris County hospitals that flooded during Hurricane Harvey 
        were outside the flood hazard areas designated by the Federal 
        Emergency Management Administration, and half were outside the 
        hurricane's projected inundation boundary.\24\
---------------------------------------------------------------------------
    \24\ Emmanuelle Hines and Colleen E. Reid, ``Hurricane Harvey 
Hospital Flood Impacts: Accuracy of Federal Emergency Management Agency 
Flood Hazard Areas in Harris County, Texas,'' American Journal of 
Public Health, February 20, 2020, e1-6,
---------------------------------------------------------------------------
https://doi.org/10.2105/AJPH.2019.305520.
          <bullet> Condition federal funding for hospitals and other 
        healthcare facilities on climate vulnerability assessments and 
        adaptation plans, using documented application of the 
        Sustainable and Climate Resilient Health Care Facilities 
        Toolkit as a minimum requirement.\25\ These assessments and 
        plans should account for both acute hazards such as wildfires, 
        and more gradual climate hazards such as sea level rise and 
        increases in average temperature.
---------------------------------------------------------------------------
    \25\ U.S. Climate Resilience Toolkit, 
``Building Health Care Sector Resilience,'' modified November 22, 2016, 
https://toolkit.climate.gov/topics/human-health/building-climate-
resilience-health-sector.
---------------------------------------------------------------------------
          <bullet> Invest in modernization of our electric grid and 
        transportation and drinking water systems, which are all vital 
        to the overall climate resilience of hospitals.\26\
---------------------------------------------------------------------------
    \26\ NRDC, ``Invest in 21st Century Infrastructure,'' 2020, https:/
/www.nrdc.org/issues/invest-21st-century-infrastructure.
---------------------------------------------------------------------------

                        Questions for the Record

                         Aparna Bole, MD, FAAP

               Chair, AAP Council on Environmental Health

                     American Academy of Pediatrics

                       the honorable kathy castor
    1. Could you please elaborate on how climate change contributes to 
the exacerbation of asthma, including both the direct contributions of 
fossil fuel-related emissions as well as the changing climate itself?
    Climate change contributes to asthma exacerbation by multiple 
mechanisms. Higher concentrations of carbon dioxide and warmer 
temperatures lead to increased pollen counts, longer allergy seasons, 
and elevated ground-level ozone that makes it harder to breathe, 
especially for those with underlying lung disease.\i\ In some areas of 
the United States, increased temperatures and changing precipitation 
patterns are contributing to longer and more intense wildfire seasons, 
which produces harmful particulate pollution that has been associated 
with increased severity of asthma exacerbations for children.\ii\ All 
of these factors exacerbate respiratory disease and asthma, leading to 
higher rates of asthma exacerbations.\iii\ \iv\ In general, children 
have increased exposure to many air pollutants compared with adults 
because of higher minute ventilation and relative time spent outdoors 
and thus are at increased risk of poor outcomes related to air 
pollution.\v\ \vi\ In addition, because children's lungs are still 
developing, they are at increased risk of long-term harm from exposure 
to air pollution.
    Fossil fuel combustion also directly contributes to worsening air 
quality through the release of harmful pollutants such as nitrogen 
dioxide, sulfur dioxide, ozone, and particulate matter, which have been 
linked to premature death, asthma exacerbations, and other respiratory 
symptoms that are most likely to affect children. In addition to 
contributing to climate change, these emissions have a direct influence 
on child health and have been associated with increased health care 
utilization and missed school days.\vii\ The interaction of emissions 
from fossil fuel combustion and climate change-related temperature 
elevations poses an increased risk for anyone with underlying lung 
disease such as asthma. This presents difficult decisions for children, 
families, and physicians who must balance the importance of physical 
activity such as outdoor sports practice with the increasing risk of 
dangerous asthma exacerbations on high ozone days.
    2. Can you explain the ways in which reducing carbon pollution also 
generates additional health benefits through promoting reductions in 
other harmful pollutants impacting children?
    While climate change disproportionately impacts child health, 
reducing carbon pollution also presents an enormous opportunity to 
improve child health by maximizing the co-benefits of carbon pollution 
reduction. Reducing emissions of hazardous traditional air pollutants 
such as particulate matter, sulfur oxides, and air toxics along with 
carbon dioxide can yield greater health outcomes for children. In 
addition to asthma exacerbations, child exposure to hazardous air 
pollutants can cause neurologic deficits, respiratory tract illness, 
and decreased lung function,\viii\ \ix\ leading to downstream effects 
including increased school absences, emergency department visits, and 
hospitalizations.\x\ \xi\ \xii\ Studies have also found associations 
between ambient air pollution and postneonatal infant mortality,\xiii\ 
\xiv\ low birth weight,\xv\ \xvi\ \xvii\ \xviii\ and preterm 
birth.\xix\ \xx\ \xxi\ \xxii\ Reducing these pollutants under the Clean 
Power Plan would have prevented up to 6,600 premature deaths. In 
addition, it would have resulted in 3,700 fewer cases of child 
bronchitis, up to 150,000 fewer asthma exacerbations in children, and 
180,000 fewer missed school days in the year 2030.\xxiii\ Reducing 
fossil fuel combustion can improve children's health and development 
over their entire life course.
    Future decarbonization efforts should prioritize this potential for 
drastic improvements in child health outcomes through leveraged 
reductions of multiple pollutants within efforts to reduce greenhouse 
gas emissions. It is crucial to transition from clean, renewable energy 
sources such as wind, solar, and hydropower while improving energy 
affordability for consumers. Utility insecurity is a patient health 
issue that can force families to make impossible decisions between 
heating their house, putting food on the table, and accessing health 
care. The families and communities most impacted by utility insecurity 
are also likely to bear a disproportionate burden of the health harms 
of fossil fuel combustion. The good news is, we know that we can 
effectively address climate change while also addressing utility 
insecurity. As the U.S. makes the necessary transition from energy 
sources that contribute to climate change and poor health outcomes, 
policymakers should consider ways to increase access to affordable 
energy to maximize the health benefits of reducing carbon pollution. 
Addressing utility insecurity should include improving home energy 
efficiency and supporting local renewable energy generation to support 
community health and sustainable energy security. Beyond the energy 
sector, reducing the carbon footprint of other sectors of the U.S. 
economy can yield important child health co-benefits, such as increased 
active transportation, healthier plant-based diets, and access to green 
spaces. Urban planning efforts that reduce sources of air pollution and 
create mitigation strategies like green spaces also have the co-benefit 
of community design that ensures safe places to walk and play, greater 
social cohesion, and the mental and physical health benefits of access 
to nature. These policies bring important child health co-benefits and 
present a tremendous opportunity to improve child health while reducing 
carbon pollution.
                               references
    \i\ American Lung Association. Health Risks of Climate Change for 
People with Lung Disease. 
https://www.lung.org/getmedia/cfe2481d-1478-4cea-8a77-1ac3eb112e71/
what-you-should-know-ways.pdf. Accessed March 3, 2020.
    \ii\ Slaughter JC, Lumley T, Sheppard L, Koenig JQ, Shapiro, GG. 
Effects of ambient air pollution on symptom severity and medication use 
in children with asthma. Ann Allergy Asthma Immunol. 2003; 91:346-353.
    \iii\ White MC, Etzel RA, Wilcox WD, Lloyd C. Exacerbations of 
childhood asthma and ozone pollution in Atlanta. Environ Res. 1994; 
65:56-68.
    \iv\ Ahdoot S, Pacheco SE, American Academy of Pediatrics Council 
on Environmental Health. Global climate change and children's health. 
Pediatrics. 2015;136:e1468-e1484. Available at: www.pediatrics.org/cgi/
doi/10.1542/peds.2015-3233.
    \v\ Sheffield PE, Knowlton K, Carr JL, Kinney PL. Modeling regional 
climate change effects on ground-level ozone and childhood asthma. Am J 
Prev Med. 2011; 41:251-257.
    \vi\ Matsui, EC, Abramson, SL, Sandel, MT. Indoor environmental 
control practices and asthma management. Pediatrics. 2016;138. 
Available at:          
https://pediatrics.aappublications.org/content/138/5/e20162589.
    \vii\ American Academy of Pediatrics, Committee on Environmental 
Health. Ambient air pollution: Health hazards to children. Pediatrics. 
2004; 114:1699-170.
    \viii\ American Thoracic Society, Committee of the Environmental 
and Occupational Health Assembly. Health effects of outdoor air 
pollution. Part 1. Am J Respir Crit Care Med. 1996; 153:3-50.
    \ix\ American Thoracic Society, Committee of the Environmental and 
Occupational Health Assembly. Health effects of outdoor air pollution. 
Part 2. Am J Respir Crit Care Med. 1996; 153:477-498.
    \x\ Thurston GD, Ito K, Hayes CG, Bates DV, Lippmann M. Respiratory 
hospital admissions and summertime haze air pollution in Toronto, 
Ontario: consideration of the role of acid aerosols. Environ Res. 1994; 
65:271-290.
    \xi\ Tolbert PE, Mulholland JA, MacIntosh DL, et al. Air quality 
and pediatric emergency room visits for asthma in Atlanta, Georgia, 
USA. Am J Epidemiol. 2000; 151:798-810.
    \xii\ Gilliland FD, Berhane K, Rappaport EB, et al. The effects of 
ambient air pollution on school absenteeism due to respiratory 
illnesses. Epidemiology. 2001; 12:43-54.
    \xiii\ Woodruff TJ, Grillo J, Schoendorf KC. The relationship 
between selected causes of postneonatal infant mortality and 
particulate air pollution in the United States. Environ Health 
Perspect. 1997; 105:608-612.
    \xiv\ Bobak M, Leon DA. The effect of air pollution on infant 
mortality appears specific for respiratory causes in the postneonatal 
period. Epidemiology. 1999; 10:666-670.
    \xv\ Ritz B, Yu F. The effect of ambient carbon monoxide on low 
birth weight among children born in southern California between 1989 
and 1993. Environ Health Perspect. 1999; 107:17-25.
    \xvi\ Bobak M. Outdoor air pollution, low birth weight, and 
prematurity. Environ Health Perspect. 2000; 108:173-176.
    \xvii\ Dejmek J, Solansky I, Benes I, Lenicek J, Sram RJ. The 
impact of polycyclic aromatic hydrocarbons and fine particles on 
pregnancy outcome. Environ Health Perspect. 2000; 108:1159-1164.
    \xviii\ Wang X, Ding H, Ryan L, Xu X. Association between air 
pollution and low birth weight: a community-based study. Environ Health 
Perspect. 1997; 105:514-520.
    \xix\ Bobak M. Outdoor air pollution, low birth weight, and 
prematurity. Environ Health Perspect. 2000; 108:173-176.
    \xx\ Ritz B, Yu F, Chapa G, Fruin S. Effect of air pollution on 
preterm birth among children born in Southern California between 1989 
and 1993. Epidemiology. 2000; 11:502-511.
    \xxi\ Ha EH, Hong YC, Lee BE, Woo BH, Schwartz J, Christiani DC. Is 
air pollution a risk factor for low birth weight in Seoul? 
Epidemiology. 2001; 12:643-648.
    \xxii\ Xu X, Ding H, Wang X. Acute effects of total suspended 
particles and sulfur dioxides on preterm delivery: a community-based 
cohort study. Arch Environ Health. 1995; 50:407-415.
    \xxiii\ U.S. EPA. Regulatory Impact Analysis for the Clean Power 
Plan Final Rule. https://www3.epa.gov / ttnecas1 / docs / ria / 
utilities _ ria _ final - clean - power - plan - existing-units_2015-
08.pdf. Updated October 23, 2015. Accessed November 5, 2019.

                        Questions for the Record

                          Arturo S. Rodriguez

                           President Emeritus

                  United Farm Workers, UFW Foundation

                       the honorable kathy castor
    1. In your testimony before the committee you mentioned some of the 
risks that farmworkers face from the impacts of climate change. What is 
the age distribution of these farmworkers and how does their age impact 
the risks that they face?
    Overall, there are approximately 2.4 million \i\ farm workers 
across the country, including hundreds of thousands of minors, ranging 
in number from 300,000 \ii\ to 500,000.\iii\ In terms of family 
structure, the majority of farm workers surveyed (55 percent) reported 
having minors in their household. In fact, although nationally-based 
surveys of farm workers \iv\ don't include children under the age of 
fourteen, in farmworker families, it is common for children to begin 
work alongside their parents at ages as young as 12.\v\
    Farmworkers are also relatively young, with two-thirds of the 
population (67%) under the age of 44:
          <bullet> 14-19 years old (7%)
          <bullet> 20-24 years old (11%)
          <bullet> 25-34 years old (26%)
          <bullet> 35-44 years old (23%)
          <bullet> 45-54 years old (19%)
          <bullet> 55-64 years old (11%)
          <bullet> 65 years or older (4%)
    Outdoor workers, children, adults over the age of 65, and low-
income communities are among the most vulnerable to extreme heat.\vi\ 
For years, farmworker families have been on the frontlines of exposure 
to extreme heat and pesticides, a reality that we've underscored at the 
state and national level, and via Congressional testimony before the 
Energy and Commerce Committee,\vii\ the Education and Labor 
Committee,\viii\ and most recently, the Select Committee on the Climate 
Crisis.\ix\
    2. What are some of the challenges that farmworkers and rural 
communities face in protecting themselves from the impacts of climate 
change? Are the challenges unique to rural areas?
    Roughly half of farmworkers are undocumented, most face language 
barriers and lack access to health care and employment benefits. On the 
economic front, farmworkers have a mean and median income that ranges 
from $17,500 to $19,999 for personal income, and from $20,000 to 
$24,999 for family income.\x\ These factors limit the ability of 
farmworkers to be adequately informed about occupational and 
environmental hazards, to speak out in the workplace or have access to 
timely medical attention when illness or injury strikes. Limited income 
also affects the affordability of housing and air conditioning that can 
provide refuge from extreme temperatures.
    When it comes to pesticide exposure, every year, over 1.1 billion 
pesticides are applied in the United States. Climate change is expected 
to result in increased pesticide use. Farmworker women work while 
pregnant. Most farmworkers have minors in their households and that 
there are hundreds of thousands of minors who work in agriculture. When 
you consider that, there are serious health implications for all 
farmworkers but in particular, for farmworker children whose bodies and 
brains are still developing and could face irreparable harm and reduced 
IQs through prenatal, on the job, and take-home exposures to neurotoxic 
organophosphate pesticides.\xi\ Salinas, CA is one of the leading 
agricultural regions in the country and UC Berkeley's Center for the 
Health Assessment of Mothers and Children of Salinas (CHAMACOS) Study 
has been instrumental in shedding light on pesticide exposures among 
farmworker children.\xii\
    Indeed, some of these challenges are unique to rural and 
agricultural areas. Compared to urban areas, rural areas have higher 
concentrations of people that live in poverty and are more likely to 
have limited access to medical services and housing with air 
conditioning. And compared to urban areas, agricultural areas face 
greater exposure to pesticides.
    As such, we urge members of Congress to consider the unique 
vulnerability of the agricultural workforce (both young and old) to 
climate change, the additional occupational and environmental hazards 
that farmworkers will face from the combined threat of rising 
temperatures and increased exposure to pesticides, and the national 
safeguards that will be needed to protect the people that feed us. In 
part, this will mean a national heat illness and fatality prevention 
standard, additional resources to rural and agricultural communities, 
as well as cancelling the registrations of toxic pesticides and a shift 
to alternatives that don't threaten the health and development of 
children in agricultural communities, and across the country.
    3. During your testimony you mentioned that farmworkers are on the 
frontlines of rising heat, wildfires and pesticide exposure. How does 
air pollution impact farmworker families and rural communities?
    In addition to rising heat, wildfires and pesticide exposure, 
farmworkers are also on the frontlines of exposure to unhealthy air. 
The UFW Foundation and the United Farm Workers union serve communities 
located in the leading agricultural regions in the country and in 
states that are home to the largest number of farmworkers in the 
country, including California, Washington, Oregon and Arizona. Based on 
the 2017 Census of Agriculture, when it comes to farmworkers California 
(377,593), Washington (228,588), Oregon (86,240), and Arizona (24,648) 
rank first, second, fourth and thirty-first in the nation, 
respectively.\xiii\
    In addition to being home to largest number of farmworkers, all of 
these states are also home to some of the most polluted cities in the 
nation for ground-level ozone (``smog''), year round particle 
pollution, and short-term particle pollution, according to the American 
Lung Association.\xiv\
    Constant exposure to air pollution threatens the health, life 
expectancy and quality of life farmworker families and rural 
communities. While ozone pollution harms the lungs, particle pollution 
increases the risk of lung cancer, shortened life-expectancy, 
respiratory and cardiovascular problems.\xv\ When it comes to air 
pollution, the subpopulations that face a greater risk are both 
children and the elderly, as well those that are low-income and/or 
suffer from asthma, lung disease, cardiovascular disease or 
diabetes.\xvi\ We recognize that rising temperatures and extreme heat, 
facilitate the creation of ground-level ozone and the risk that air 
pollution causes to human health.
    Furthermore, droughts facilitate the environment that is conducive 
to Valley Fever, a potentially deadly infection caused by a soil-borne 
fungus that thrives in dry soil. The Centers for Disease Control and 
Prevention shares that tens of thousands of cases of Valley Fever are 
likely to occur, many will go misdiagnosed because its symptoms can be 
confused with the flu and many patients aren't tested for the disease. 
The numbers indicate that new cases of this harmful fungal disease are 
concentrated in the San Joaquin Valley, a leading agricultural region 
in the country where most of California's farmworkers are located. 
Experts warn that climate change will expand the areas in the country 
that will be affected by Valley Fever.\xvii\
    Consistent exposure to rising temperatures, ground-level ozone, 
particle pollution, pesticides, and the soil-borne fungus that thrives 
in droughts underscores the importance of protecting farmworkers and 
agricultural communities from climate change.
                            references page
    \i\ https://www.nass.usda.gov/Publications/AgCensus/2017/
#Full_Report/Volume_1,_Chapter_2_
US_State_Level/st99_2_0007_0007.pdf.
    \ii\ https://afop.org/wp-content/uploads/2010/07/Children-in-the-
Fields-Report-2007.pdf.
    \iii\ https://www.hrw.org/news/2010/05/05/us-child-farmworkers-
dangerous-lives.
    \iv\ https://wdr.doleta.gov/research/FullText_Documents/ETAOP_2019-
01_NAWS_Research_Report_13.pdf.
    \v\ ibid.
    \vi\ https://www.ucsusa.org/sites/default/files/attach/2019/07/
killer-heat-analysis-full-report.pdf.
    \vii\ https://energycommerce.house.gov/sites/
democrats.energycommerce.house.gov/files/documents/
Giev%20Kashkooli%20TestimonyPESTICIDES031319.pdf.
    \viii\ https://edlabor.house.gov/imo/media/doc/
A_RodriguezTestimony0711192.pdf.
    \ix\ https://docs.house.gov/meetings/CN/CN00/20200205/110433/HHRG-
116-CN00-Wstate-RodriguezA-20200205.pdf.
    \x\ https://wdr.doleta.gov/research/FullText_Documents/ETAOP_2019-
01_NAWS_Research_Report_13.pdf.
    \xi\ https://www.thenation.com/article/archive/warning-signs-how-
pesticides-harm-young-brain/.
    \xii\ https://cerch.berkeley.edu/research-programs/chamacos-study.
    \xiii\ https://www.nass.usda.gov/Publications/AgCensus/2017/
#Full_Report/Volume_1,_Chapter_2_
US_State_Level/st99_2_0007_0007.pdf.
    \xiv\ http://www.stateoftheair.org/city-rankings/most-polluted-
cities.html.
    \xv\ http://www.stateoftheair.org/air-quality-facts/.
    \xvi\ http://www.stateoftheair.org/key-findings/people-at-
risk.html.
    \xvii\ https://www.nbcnews.com/news/us-news/potentially-deadly-
valley-fever-hitting-california-farmworkers-hard-worrying-researchers-
n1017806.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
